                                                  U.S. Department of Agriculture
                                                     Office of Inspector General
                                                                 Midwest Region




                                Audit Report


             Animal and Plant Health Inspection Service
                  Safeguards to Prevent Entry of
                  Prohibited Pests and Diseases
                       into the United States



Note: This report has been provided to the Department of Homeland Security (DHS),
Office of the Inspector General. Under the Homeland Security Act of 2002, the APHIS
import and inspections functions will be transferred to DHS. The transfer is expected
to be effective by March 1, 2003.




                                                            Report No. 33601-3-Ch
                                                                FEBRUARY 2003
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250




DATE:         February 20, 2003

REPLY TO
ATTN OF:      33601-0003-Ch

SUBJECT:      Safeguards to Prevent Entry of Prohibited Pests
               and Diseases Into the United States

TO:           Bobby R. Acord
              Administrator
              Animal and Plant Health Inspection Service


This report presents the results of our audit of the Animal and Plant Health Inspection
Service’s (APHIS) controls and procedures to prevent the entry of pests and diseases into
the United States through its program of border and port inspections. Our primary emphasis
throughout the audit has been on key areas such as risk assessment, staffing, inspection
procedures at the ports, and the collection and reporting of inspection data. In addition, in
response to external events that took place during our fieldwork, we have incorporated
special review areas into our audit. For instance, we made a special review of both APHIS’
and FSIS’ controls to prevent the incursion of Foot and Mouth Disease during the major
outbreak in early 2001; this was covered in a separate report issued in July 2001. Also,
following the events of September 11, 2001, we have placed additional emphasis on APHIS’
activities related to homeland security concerns.

The APHIS response to the official draft report is included as exhibit A, with excerpts and the
Office of Inspector General’s position incorporated into the Findings and Recommendations
section of the report. Based on the response, we have reached management decisions on
Recommendations Nos. 12, 16, 21, 22, 28, 30 and 32. Please follow your agency’s internal
procedures in forwarding documentation for final action to the Office of the Chief Financial
Officer.

Management decisions have not yet been reached on Recommendations Nos. 1, 2, 3, 4, 5,
6, 7, 8, 9, 10, 11, 13, 14, 15, 17, 18, 19, 20, 23, 24, 25, 26, 27, 29, 31, 33, 34, 35, 36 and 37.
Management decisions can be reached on these recommendations once you have provided
the additional information outlined in the report sections, OIG Position.
Bobby R. Acord                                                                        2


In accordance with Departmental Regulation 1720-1, please provide a reply within 60 days
describing the corrective actions taken and planned, including timeframes for their
implementation. Please note that the regulation requires that management decisions be
reached on all recommendations within a maximum of 6 months of report issuance.



/s/
RICHARD D. LONG
Assistant Inspector General
  for Audit
Executive Summary
Safeguards to Prevent Entry of Prohibited Pests and Diseases into the United States
Audit Report No. 33601-3-Ch

Results in Brief                                  The Animal and Plant Health Inspection Service (APHIS) is responsible for
                                                  inspecting agricultural products entering this country from abroad to detect
                                                  and intercept foreign pests or diseases that could threaten U.S. agriculture.
                                                  We performed this audit to evaluate the effectiveness of APHIS’ inspection
                                                  programs. After the events of September 11, 2001, we expanded our review
                                                  to consider the possibility of an intentional introduction into the United
                                                  States of organisms harmful to the Nation’s food supply.

                                                  The main objectives of our review were to determine whether APHIS
                                                  properly assessed the risks associated with the many ways in which pests
                                                  and diseases could enter this country, whether it staffed the ports1
                                                  accordingly, and whether its inspections at the ports were adequate to
                                                  intercept infested or diseased product before it entered the United States.

                                                  We concluded that APHIS needs a more effective systematic assessment of
                                                  the risks involved with various pests and the pathways by which they can
                                                  enter. APHIS does have a statistically based risk-assessment system to
                                                  evaluate the effectiveness of its ongoing inspection operations, as well as a
                                                  separate system that records overall inspection activity and interception
                                                  rates. However, the agency has not ensured that the various ports and other
                                                  entry points apply a consistent methodology for collecting the data for either
                                                  system, nor implemented an organizational strategy for interpreting and
                                                  applying the results obtained from them. In at least two instances, the risk-
                                                  assessment system indicated that traditional inspection methods were only
                                                  intercepting a fraction of the pests that were actually incoming through ports
                                                  of entry, as follows:

                                                  •     In FY 2000, Plant Protection and Quarantine’s (PPQ) risk-assessment
                                                        system showed a potential Quarantine Material Interceptions (QMI) rate
                                                        of 5.9 percent in air passenger baggage, while PPQ’s overall inspection
                                                        efforts resulted in a QMI rate of only 1.5 percent.

                                                  •     During this same period, PPQ was averaging a QMI rate of 0.2 percent
                                                        in vehicles entering the country, while the risk-assessment system
                                                        indicated a possible interception rate of 2.8 percent.




1
    Ports are defined as airports, seaports, and border crossings   .

USDA/OIG-Audit No. 33601-3-Ch                                                                                         i
                     APHIS has not taken systematic or comprehensive action to determine the
                     reason for these apparent “performance gaps,” or to effect their closure.
                     Further, the risk-assessment system itself contained several flaws.

                        The program was targeted at carriers and cargoes for which inspection
                        activities already existed. It gathered little or no information about other
                        carriers and cargoes—on one border rail shipments, road crossings
                        unstaffed by APHIS, etc.—for which inspection activities were minimal.

                        The data collected for the program, which required statistical projections,
                        was generally based on samples that were not collected in accordance
                        with the statistical sampling plans required by PPQ Headquarters. This
                        occurred at 60 percent of the ports we visited.

                        The ports generally did not recommend changes based on the risks
                        identified by the program, and APHIS’ Headquarters had no system to
                        ensure the program results obtained at any given port were disseminated
                        nationwide as appropriate. For instance, although one port reported that
                        23 percent of cargo aircraft arriving from certain areas contained pests, no
                        other port was informed of this finding.

                     Despite the conditions noted above, APHIS managers concluded that their
                     inspection staff was correctly concentrated on air passengers and their
                     baggage. At the ports we visited, approximately 65 percent of APHIS’
                     inspection staff was assigned to inspect air passengers and baggage at
                     international airports, even though this pathway had one of the lowest
                     recorded reportable pest interception rates, 0.2 percent. More staffing was
                     needed for the inspection of air, maritime, and rail cargo or for clearing
                     cruise ships arriving from foreign ports.

                        Staffing at cargo ports was based on a pest interception count that did not
                        consider the magnitude or potential distribution of the shipment. APHIS
                        gave the same value to the interception of one piece of fruit from an air
                        passenger as it gave to the interception of a 2000-pound case of fruit from
                        a cargo container.

                        Only one or two inspectors were assigned to clear cruise ships because a
                        flawed APHIS study showed these vessels to be low risk. A separate
                        review undertaken by one port of arrival determined that 76 percent of
                        inbound cruise ships from low-risk countries contained families of live
                        insects on their decks.

                     Staffing allocations impacted the effectiveness of APHIS’ inspection
                     program at several ports, notably the inspections of rail cargo with secondary
                     inspections at certain locations around the country.




USDA/OIG-Audit No. 33601-3-Ch                                                             ii
                     Although APHIS has historically considered Canadian shipments low risk, it
                     nevertheless recognizes a problem posed by “transient cargo.” Officials of
                     the APHIS region through which much of the transient shipments pass
                     between Mexico and Canada stated their belief that more inspectors are
                     needed to monitor transient cargo. Currently, APHIS inspectors at border
                     crossings rely on referrals from the U.S. Customs Service when agricultural
                     products arrive at unstaffed crossings. However, better coordination is
                     needed with Customs.

                     APHIS’ reliance on the Customs Service at the border crossing has similarly
                     affected its participation in the Line Release Program on one border, a
                     program designed to facilitate high-volume, low-risk shipments. Under this
                     program, Customs allows shippers to bring products into the United States
                     with little or no inspection. Because this is actually a Customs program in
                     which APHIS participates, APHIS has issued no guidance on screening
                     applicants, testing shippers’ compliance with APHIS regulations, and
                     sanctioning violators.

                     Staffing and guidance problems also impacted the comprehensiveness of
                     APHIS inspections. Because APHIS has no requirement that inspectors
                     unload cargo for a complete inspection, even on a sampling basis, inspectors
                     have concentrated on only a portion of the containers. A study performed by
                     one State showed that partial inspections miss about 60 percent of the pests
                     found during complete unloading.

                     APHIS has issued specific guidance on monitoring foreign garbage disposal,
                     but port inspectors did not monitor contractor activities with the required
                     regularity. One waste hauler was completely unsupervised because APHIS
                     had never entered into an agreement with it to dispose of foreign garbage.

                     Because APHIS’ programs of risk-assessment were unsystematic, APHIS’
                     report of accomplishments for FY 2000 under the Government Performance
                     and Results Act (GPRA) was based on inaccurate and incomplete
                     information. APHIS’ border accomplishments, for example, were based
                     solely on its work on the U.S.-Mexico border, which is more heavily staffed.
                     No data was included from the U.S.-Canada border. Although the GPRA
                     report represented all reported compliance rates as being statistically
                     derived, we found that they were, in fact, based on questionable
                     computations that mixed both statistical and nonstatistical data. No attempt
                     was made to compare the QMI rates from APHIS’ risk-assessment system to
                     the agency’s overall inspection results as a measure of their effectiveness.

                                            *             *            *




USDA/OIG-Audit No. 33601-3-Ch                                                          iii
                     Other objectives of this audit concerned background checks of APHIS
                     employees at airports, and APHIS’ monitoring of Transportation and
                     Exportation (T&E) shipments. In these areas, we noted several deficiencies:

                     Background checks. APHIS did not complete criminal history record checks
                     of its employees who worked at international airports and other high-security
                     locations within the required 45 days. In many cases, the 45-day deadline
                     passed before APHIS even initiated the checks.

                     T&E shipments. Finally, we found that despite APHIS’ commitment from a
                     prior audit to strengthen its monitoring of T&E shipments, these shipments
                     continued to go untracked. T&E shipments consist of cargo that arrives at a
                     U.S. port with an ultimate destination of either Canada or Mexico and
                     therefore does not need to be inspected. Over 90 percent of the T&E
                     shipments we reviewed could not be accounted for as having left the
                     country.

Key
Recommendations      We are recommending that APHIS redirect its risk studies to assess the
                     threat from carriers and cargoes that other indicators show are a potential
                     risk or that have received little study under the current risk assessments.
                     APHIS needs to ensure the studies are valid, that ports are notified of the
                     studies’ results, and that staffing is commensurate with the risks disclosed.
                     For database input, ports should provide second-party reviews before
                     forwarding the data to Headquarters.

                     We are also recommending that APHIS develop guidelines to ensure that
                     inspections are performed where warranted and that they are thorough when
                     performed. The guidelines need to direct port involvement in the Line
                     Release Program and institute procedures for unloading sample containers
                     when tailgate inspections are inadequate. APHIS also needs to ensure that
                     all rail cargo is subject to inspection, that border crossings make use of the
                     advance notice they receive of incoming rail shipments to schedule
                     inspections, and that ports strengthen their oversight of foreign garbage
                     disposal.

                     Finally, we are recommending that APHIS coordinate activities over T&E
                     shipments; implement controls over the collection, calculation, and reporting
                     of performance data for GPRA; and ensure that employees who do not have
                     a completed background check are not assigned to work in secure areas at
                     commercial airports and military bases.

Agency Response      In their response to the official draft report, dated September 27, 2002,
                     APHIS officials generally agreed with the findings and recommendations as
                     presented and are currently engaged in taking corrective actions. Actions on
                     some recommendations have been completed, while others are in process.



USDA/OIG-Audit No. 33601-3-Ch                                                            iv
                     Portions of the APHIS response are incorporated into the Findings and
                     Recommendations section of the report. The full text of the response is
                     included as exhibit A of the audit report.

OIG Position         We generally agreed with APHIS’ responses to the recommendations and
                     have reached management decisions on Recommendations Nos. 12, 16, 21,
                     22, 28, 30 and 32. Management decisions have not yet been reached on
                     Recommendations Nos. 1, 2, 3, 4, 5, 6, 7, 8, 9, 10, 11, 13, 14, 15, 17, 18, 19,
                     20, 23, 24, 25, 26, 27, 29, 31, 33, 34, 35, 36 and 37. Management decisions
                     can be reached on these recommendations once we receive the information
                     specified in the report sections OIG Position.




USDA/OIG-Audit No. 33601-3-Ch                                                             v
Table of Contents
EXECUTIVE SUMMARY ........................................................................................................... i

    Results in Brief ................................................................................................................... i

    Key Recommendations ........................................................................................................ iv

    Agency Response................................................................................................................. iv

    OIG Position ......................................................................................................................... v

TABLE OF CONTENTS............................................................................................................. vi

BACKGROUND AND OBJECTIVES......................................................................................... 1

    Background........................................................................................................................... 1

    Objectives ............................................................................................................................. 2

FINDINGS AND RECOMMENDATIONS ................................................................................... 3

Objective 1: AQI Monitoring .................................................................................................... 3

    Finding No. 1:           AQIM Activities Were Not Implemented To Assess the Risk
                             of Pests Entering the Country Through New Pathways ............................. 5

    Finding No. 2:           Risk Assessment Data Collected From AQIM Activities Was
                             Not Always Valid ........................................................................................ 7

    Finding No. 3:           Potentially Valid AQIM Results Were Not Used To Implement
                             Risk-Mitigation Procedures ........................................................................ 11

Objective 2: Staffing................................................................................................................ 17

    Finding No. 4:           PPQ Needs to Strengthen Inspection Coverage at
                             Border Crossings ....................................................................................... 18

    Finding No. 5:           PPQ Staffing Allocations Need to Consider the Volume of Product
                             Intercepted From Incoming Air, Maritime, and Rail Cargo ......................... 20

    Finding No. 6:           PPQ Needs to Improve Inspections of Cruise Ships .................................. 23




USDA/OIG-Audit No. 33601-3-Ch                                                                                                 vi
Objective 3: Agricultural Quarantine Inspections ................................................................. 29

    Finding No. 7:         More Thorough Inspections of Containers Needed to
                           Detect Pests and Diseases ........................................................................ 29

    Finding No. 8:         Controls Over the Line Release Program
                           Need Strengthening .................................................................................. 31

    Finding No. 9:         More Inspections of Inbound Rail Containers
                           are Needed ................................................................................................ 37

    Finding No. 10: APHIS Needs to Strengthen Its Monitoring of Firms That
                    Dispose of Foreign Garbage ...................................................................... 41

    Finding No. 11: APHIS Did Not Target Importers Whose Shipments Have
                    Historically Posed the Greatest Risk .......................................................... 45

Objective 4: WADS System .................................................................................................... 47

    Finding No. 12: APHIS’ System of Measuring Inspection Activity Needs
                    Improvement .............................................................................................. 47

Objective 5: T&E Shipments .................................................................................................. 55

    Finding No. 13: PPQ Needs to Establish Control Over Transportation and Exportation
                    Shipments .................................................................................................. 55

Objective 6: Background Checks .......................................................................................... 63

    Finding No. 14: APHIS’ Employee Background Checks
                    Not Timely Made ........................................................................................ 63

Objective 7: GPRA Reporting................................................................................................. 67

    Finding No. 15: APHIS’ FY 2000 GPRA Report Was Not Adequately
                    Supported .................................................................................................. 67

SCOPE AND METHODOLOGY................................................................................................. 77

EXHIBIT A – APHIS’ Response to the Draft Report................................................................... 79




USDA/OIG-Audit No. 33601-3-Ch                                                                                           vii
Background and Objectives
Background                   The Animal and Plant Health Inspection Service (APHIS) was established in
                             1972. APHIS conducts an Agricultural Quarantine Inspection (AQI) program to
                             maintain the risk of introduction of invasive species of pests and diseases into
                             the United States at acceptable levels to protect American agricultural resources,
                             maintain the marketability of U.S. agricultural products, and facilitate the
                             movement of people and commodities across the borders. Along with manual
                             inspections, APHIS personnel use alternative inspection methods and
                             technologies such as x-ray systems and detector dogs.

                             APHIS inspectors work at U.S. ports of entry (port) to screen passenger
                             baggage, vehicles, cargo, mail, and ship and airline food supplies for prohibited
                             agricultural materials that may contain exotic pests or diseases. These pests and
                             diseases could threaten the abundance and variety of the U.S. food supply,
                             damage our natural resources, and cost American taxpayers millions of dollars
                             for higher-priced food and the cost of pest control and eradication programs.
                             APHIS is one of three Federal Inspection Service (FIS) agencies responsible for
                             monitoring the entry of cargo and passengers into the United States. The other
                             FIS agencies are the U.S. Customs Service in the Department of the Treasury,
                             and the Immigration and Naturalization Service (INS) in the Department of
                             Justice. APHIS’ Plant Protection and Quarantine (PPQ) is responsible for
                             implementing effective controls to ensure that threats from foreign pests and
                             diseases to U.S. agricultural and natural resources are minimized.2

                             APHIS Headquarters is in Riverdale, Maryland, and PPQ has two regional
                             offices (three when our audit began) and 141 field offices nationwide. APHIS
                             helps to facilitate trade for both importers and exporters, and its PPQ unit is
                             central to the successful flow of commodities into and out of the United States.
                             PPQ is responsible for ensuring that healthy seeds, bulbs, timber, flowers,
                             vegetables, fruits, and a multitude of other agricultural commodities can be
                             imported without risk to agriculture and natural resources. APHIS’ Veterinary
                             Services (VS) unit ensures that animals and animal products, can be imported
                             into this country without threatening the health of U.S. animals.

                             The AQI represents the largest single part of the APHIS budget, as well as being
                             the agency’s most visible program. In fiscal year 2001, APHIS spent about
                             $223 million for AQI activities and had 2,170 inspectors and 1,141 technicians
                             located at 141 land, sea and air ports-of-entry. The 2002 budget was about
                             $405 million (includes a $50 million supplement for Homeland Security) for
                             AQI activities. During fiscal year 2000 PPQ made over 13 million inspections
                             of the following:


2
 Under the Homeland Security Act of 2002, APHIS; import and entry inspection functions will be transferred from the Department of
Agriculture to the Department of Homeland Security. This transfer is expected to be effective by March 1, 2003.



USDA/OIG-Audit No. 33601-3-Ch                                                                                               1
                  •      over 198,751 maritime cargo shipments,
                  •      51,491 ships,
                  •      1,310,735 vehicles and buses,
                  •      170,137 truck cargo shipments
                  •      373,060 aircraft,
                  •      10, 629,737 air passengers, and
                  •      400,327 air cargoes.

                  In 1999, the National Plant Board, an independent organization that was
                  requested by APHIS to study inspection methods, issued its Safeguarding
                  Report to APHIS. The Board’s Report included 307 recommendations for
                  improving inspection activities.    We considered this report and its
                  recommendations as we conducted our audit and prepared this report.

                  Also, as a result of the Foot and Mouth Disease (FMD) outbreak in Europe and
                  South America in 2001, we refocused our audit work at that time to review the
                  agency’s inspection controls to guard against the threat of an FMD outbreak in
                  the United States.         As a result of that work, we issued Audit
                  Report 50601-0003-Ch in July 2001.


Objectives        The objective of this audit was to evaluate the adequacy and effectiveness of
                  APHIS’ operations to prevent or minimize the introduction of harmful, exotic
                  pests and diseases into the United States. To accomplish this objective, we
                  reviewed and assessed APHIS’ policies and procedures for (1) identifying and
                  assessing risk among the various types of imported goods to prevent the entry of
                  exotic pests and diseases into the United States, (2) providing inspection
                  coverage at all major ports-of-arrival of cargo and passengers, particularly
                  during times of high-volume traffic, (3) conducting inspections at airports,
                  seaports, and land-border crossings, (4) accurately collecting and reporting data
                  on inspection and interception activity, (5) ensuring that sealed Transportation &
                  Exportation shipments entering the United States exit the country under seal as
                  required, (6) reviewing the agency’s procedures over employee security
                  clearances, and (7) reporting the agency’s accomplishments under the
                  Government Performance Results Act (GPRA). In addition, we evaluated the
                  oversight of program operations provided by APHIS Headquarters and the three
                  regional offices, including their corrective actions on problems identified in
                  previous audits or by APHIS-sponsored studies.




USDA/OIG-Audit No. 33601-3-Ch                                                             2
Findings and Recommendations
Objective 1: AQI Monitoring

                     Agricultural Quarantine Inspection Monitoring (AQIM) was put into place
                     to assess the risk posed by agricultural pests approaching ports and border
                     crossings and to measure the effectiveness of the Agricultural Quarantine
                     Inspection (AQI) program at mitigating that risk. We determined that
                     APHIS did not target its monitoring to measure the real threat of foreign pest
                     infestation, did not always collect viable data, and even when such data was
                     collected, did not use it to assess the risk of pest infestation and make needed
                     changes to mitigate that risk. As a result, APHIS:

                     -   concluded that its inspection staffs were correctly concentrated at
                         airports, even though some AQIM studies showed other ports may carry
                         higher risks,

                     -   could not ensure that pests were not entering through rail cargo; and

                     -   took no action to improve the effectiveness of the current inspection
                         programs.

                    We attributed the above problems primarily to an absence of emphasis and
                    oversight of risk assessment activities by PPQ management. AQIM
                    responsibilities were largely left unassigned at the ports, and where
                    assignments were made, AQIM activities were often limited to clerical
                    duties.

                    AQIM consists of monitoring activities at various PPQ ports of entry and
                    border crossings. AQIM officials statistically select a number of measurable
                    units, such as air passengers or cargo shipments, and an inspector inspects
                    each unit (i.e., passenger baggage, cargo, etc.). When PPQ confiscates
                    regulated plant or animal products from baggage, cargo, mail, aircraft, or
                    vessels because of prohibition, permit denial, pest risk, or abandonment, they
                    report them as Quarantine Material Interceptions (QMI). QMI’s are counted
                    in units, with a QMI unit being one material from one country of origin on
                    one shipment. The QMI rate would be the number of QMI’s divided by the
                    number of inspections. Any given QMI may or may not contain a reportable
                    pest. Such pests, once identified, are reported separately in the Work
                    Accomplishment Data System (WADS).

                    For example, if a review of 100 air passengers arriving at an airport discloses
                    2 interceptions of prohibited plant or animal products, then the QMI rate for
                    that route of entry is 2 percent. The higher the percent, the greater the risk
                    that pests can enter the country through that route, and the greater the need
                    for PPQ to increase its inspections along that route.



USDA/OIG-Audit No. 33601-3-Ch                                                             3
                    PPQ reports pest interceptions that may be a threat to U.S. agriculture as
                    reportable pests. The pest interception rate, as discussed in this report, is the
                    number of reportable pests divided by the number of inspections. This differs
                    from the QMI rate, which is confiscated product that may or may not contain
                    pests.

                    Routes of entry are known as “pathways.” At the time we began our
                    fieldwork in April 2001, PPQ had identified 9 pathways and implemented a
                    total of 117 AQIM activities at 66 ports and border crossings that constitute
                    these pathways. Of those 9, the 7 “major” pathways and their 109 activities
                    included the following:

                        Pathway                                Number of Activities

                        Air Passenger                          25 airports
                        Air Cargo                              18 airports
                        Vehicle Traffic (Southern)             11 U.S.-Mexico border crossings
                        Vehicle Traffic (Northern)             12 U.S.-Canada border crossings
                        Truck Traffic (Southern)                8 U.S.-Mexico border crossings
                        Truck Traffic (Northern)               12 U.S.-Canada border crossings
                        Maritime Cargo                         23 maritime ports

                    The number of AQIM activities exceeded the number of ports because in
                    many instances, a single port operated multiple AQIM activities (as in a case
                    of Houston, Texas, which incorporated separate AQIM activities for air
                    passenger, air cargo, and maritime traffic). We reviewed 25 AQIM activities
                    at 15 large ports.




USDA/OIG-Audit No. 33601-3-Ch                                                             4
Finding No. 1       AQIM Activities Were Not Implemented To Assess the Risk of
                    Pests Entering the Country Through New Pathways

                    AQIM activities were targeted primarily at those pathways traditionally
                    covered by APHIS PPQ inspections (e.g., air passenger baggage) and
                    consequently did not determine the actual risk of foreign pests and diseases
                    entering through other pathways. Commitment to the activities at the ports
                    was often poor, and because many ports were not adequately staffed by PPQ
                    personnel (see Objective 2), the activities were often used to supplement the
                    agency’s traditional inspection activities where staffing was available. As a
                    result, APHIS did not use AQIM to assess the agency’s overall effectiveness
                    at mitigating the risk of foreign pest entry, and thus could not learn what
                    potential vulnerabilities existed within its inspection program.

                    APHIS traditionally concentrates its PPQ inspection efforts on known,
                    agriculture-related cargoes entering the country through large, international
                    ports or border crossings. Monitoring of these traditional pathways has
                    shown QMI rates as low as 2.6 percent, whereas the few monitoring projects
                    performed of nontraditional pathways have shown reportable pests
                    interception rates of up to 27 percent.

                    One example of an invading foreign pest that did not use a traditional
                    pathway was the Asian Longhorned Beetle. The entry of this pest remained
                    undetected until after it was well established in this country and had caused
                    millions of dollars in damage to hardwood trees. Traceback activities
                    performed subsequent to the outbreak disclosed that the beetle had entered
                    the country in hardwood packing materials associated with non-agricultural
                    products such as steel manhole covers. This type of product was not
                    previously inspected by APHIS.

                    The AQIM Handbook states that AQIM activities were put into place to
                    determine the threat of agricultural pests approaching all ports and border
                    crossings and to determine how effective AQI activities are at managing the
                    threats.

                    The Handbook provides direction as to the areas to be covered by the
                    surveys. The Handbook gives AQIM officials at the ports the discretion to
                    conduct activities beyond the specific instructions given in the Handbook, but
                    because many ports have not appointed AQIM officials or have limited the
                    scope of their duties and authorities, this is seldom done. As a result, few
                    AQIM activities are done outside of the areas described in the Handbook.

                    We found that under the current guidelines set forth in the Handbook, AQIM
                    surveys are heavily directed toward pathways already covered by traditional
                    inspections. Examples of these pathways include air passenger baggage,


USDA/OIG-Audit No. 33601-3-Ch                                                           5
                      trucks and other vehicles entering through Canadian and Mexican border
                      crossings, and air and maritime cargo containers. Inspections performed as
                      part of these surveys do achieve positive results because they generally
                      include the unloading of cargo containers, a measure that is not normally
                      performed as part of APHIS’ traditional inspection procedures. However,
                      some of these pathways are only partially covered, while other potential
                      pathways into the country are entirely excluded from coverage in AQIM
                      activities.

                      During our audit, we encountered two monitoring projects performed as part
                      of a local initiative by one port. One of these projects, which targeted
                      shipments of tile in maritime cargoes, revealed a pest interception rate of
                      27 percent; the other survey, whose purpose was to identify countries whose
                      air cargo shipments were of particularly high risk, disclosed a 23.7 percent
                      interception rate for actionable pests in cargo flights originating from specific
                      geographic regions. (See Finding No. 3.)

                      Even a fully comprehensive AQIM risk assessment system would not
                      guarantee the detection of a pest such as the Asian Longhorned Beetle in time
                      to prevent an outbreak. However, the early detection and deterrence of even
                      one such pest could prevent large-scale damage to U.S. agricultural interests.
                      Thus, we concluded that PPQ needs to re-examine its approach to the risk
                      assessment process and develop more broadly applied survey techniques that
                      provide at least some measure of coverage to all major pathways through
                      which harmful pests may enter the country.

Recommendation
No. 1          Redirect AQIM activities to cover all potential pathways through which pests
               and diseases could enter the United States, including those which are not
               currently covered by normal PPQ inspections.

                   Agency Response.

                   Agency officials agreed that AQIM activities should be expanded to cover all
                   pathways. AQIM activities are currently planned for the rail and express
                   “package” pathways. A subgroup of the National AQIM Team was formed
                   during September 2002 to begin planning, developing, and implementing AQIM
                   activities for these pathways during January 2003. This group will also revise
                   and increase the AQIM activities for the truck cargo pathway. In addition,
                   agency officials stated they have put considerable resources into strengthening
                   scientific support for inspection activities.

                   OIG Position.

                   Before we agree to reach management decision, we need some additional
                   information. We need a more descriptive explanation on the rail and express
                   “package” pathways. We also need to know when the AQIM activities for the


USDA/OIG-Audit No. 33601-3-Ch                                                               6
                  truck cargo pathway will be implemented. We also request further explanation
                  concerning cargo of noninterest, considering that the Asian Longhorned Beetle
                  entered through this pathway.


Finding No. 2       Risk Assessment Data Collected From AQIM Activities Was Not
                    Always Valid

                    PPQ personnel at the ports-of-entry we visited had generally not collected
                    meaningful AQIM data on the efficiency of the inspection system. Twenty
                    percent of the monitoring activities did not report their results within the
                    required timeframe. Sixty four percent of the ports participating in AQIM for
                    FY 2001 failed to collect viable data. Overall we attributed this problem to a
                    lack of oversight by PPQ Headquarters and the regional offices, which
                    allowed the ports to leave unfilled key personnel positions related to AQIM
                    planning, training, operations, and oversight. As a result, APHIS’ conclusion
                    that it has identified the high-risk pathways into the United States and
                    assigned PPQ inspectors to high risk ports of entry was without statistical
                    validity.

                    PPQ’s AQIM Handbook, Chapter 1, specifies that the AQIM process of
                    collecting information about PPQ monitoring of the various pathways into
                    the country, as well as the types of pests and diseases which enter the United
                    States through them, is to be based on proven statistical techniques. We
                    found that of the 25 activities we reviewed, 16 activities at 12 ports did not
                    meet this requirement. The samples collected either were not selected
                    randomly or were insufficient in number.

                    Samples Not Selected Randomly

                    AQIM is based on statistical sampling procedures that require proper
                    implementation to ensure that any projections made from those samples are
                    statistically valid. Although the sampling plans are developed at the port
                    level, the AQIM Handbook stresses the need for the samples to be random in
                    that each sampling unit must have an equal chance of being selected and each
                    selection is independent of all other units selected.

                    We found that these procedures were not being followed for nine of the
                    activities we reviewed. For example, PPQ arbitrarily selected cargo
                    shipments or vehicles for AQIM inspections without following any sort of
                    sampling plan or random means of selection.

                    Samples Not Selected in Sufficient Numbers

                    The number of samples to be selected over a given time period are stipulated
                    by statisticians in APHIS Headquarters. However, we found that PPQ


USDA/OIG-Audit No. 33601-3-Ch                                                           7
                    personnel consistently selected fewer sampling units than the numbers
                    required by the statistical sampling plans. For example, the tracking report
                    submitted by an airport for the first 10 months of fiscal year 2001, showed
                    that the AQIM Air Cargo Unit had completed only 17 (40 percent) of the
                    43 required air cargo samples; the AQIM Air Passenger Unit for this same
                    airport had completed only 1,695 (46 percent) of the 3,650 required sample
                    selections during this same period. A PPQ Headquarters official stated that
                    he monitors the number of AQIM samples that the ports select, and contacts
                    the ports to inform them when they are behind on their samples. However,
                    he said that he does not have the authority to make the ports select the
                    required number of samples.

                    In addition, by the reporting date of August 15, 2001, 35 of the 125 AQIM
                    activities nationwide did not submit monthly reports in a timely manner. For
                    fiscal year 2001, almost 50 percent had failed to meet the required number of
                    sample selections. No followup was performed by Headquarters to determine
                    the reason for this noncompliance. As a result of these failures to select the
                    required number of samples, any projections made based on them would be
                    without validity.

                    One of the FY 2000 AQIM activities was Air Passenger. The ports are
                    required to select 3,650 passengers for AQIM inspections during the year.
                    However, 10 of the 27 ports did not meet the selection requirement. For
                    example, one port selected only 2,353 (64 percent of the required total), while
                    another selected only 1,387 (38 percent). The remaining eight ports averaged
                    only 75 percent of the number required by the statistical sampling plan.

                    The inadequate sampling methods resulted from a lack of oversight by PPQ
                    Headquarters and the regional offices, which allowed the ports to leave
                    unfilled key personnel positions related to AQIM planning, training,
                    operations, and oversight. The PPQ Handbook specifically directs each port
                    director to designate an AQIM coordinator to manage activities such as
                    training of personnel, development of standard operating procedures for
                    AQIM implementation at the port, monitoring AQIM operations, and
                    reporting of results to appropriate officials.

                    We found that for six activities at three ports, the port directors had not
                    designated an AQIM coordinator to fulfill the responsibilities of managing
                    the activities at the port level and ensuring that critical functions such as
                    sample selection and reporting of results were being properly accomplished.
                    The AQIM coordinators for 19 activities at 12 ports were not always assigned
                    duties that covered the critical functions needed to ensure a successful AQIM
                    program. In these cases, the responsibilities of the AQIM coordinators were
                    generally limited to entering the sampling results from their activities into
                    PPQ’s database. At two ports, the coordinators were unaware of the
                    objectives of the AQIM program.



USDA/OIG-Audit No. 33601-3-Ch                                                            8
                       As noted above, one responsibility of the AQIM coordinator is to ensure that
                       all assigned personnel are properly trained to perform their designated
                       functions.     We concluded that the absence of functioning coordinators
                       contributed to the lack of training provided to PPQ inspectors, and the
                       consequent fact that they had only limited knowledge of the AQIM program
                       or the relevance of their own assigned roles in it. For example, inspectors at
                       two of the ports believed that APHIS had implemented the AQIM program
                       solely to reduce employee overtime and possibly to eliminate the jobs of
                       some inspectors.

                       We concluded that the effectiveness of the AQIM program is diminished by
                       the failure of PPQ management at the ports to require their personnel to
                       properly implement the activities and select their samples in a statistically
                       valid manner. To address these problems, PPQ Headquarters and the
                       regional offices need to assume a more active role in monitoring the ports to
                       ensure that they are following required AQIM procedures. In addition, PPQ
                       port directors need to ensure that key positions such as the AQIM coordinator
                       are staffed with personnel who are performing all the functions associated
                       with these positions.

Recommendation
No. 2          Implement a system for PPQ Headquarters and/or the regional office to
               periodically oversee each port’s AQIM activities to ensure that these activities
               are properly implemented and operating in accordance with Headquarters’
               policies and guidelines.

                    Agency Response.

                    The agency agreed with the recommendation. Their response stated that a
                    system is in place to oversee AQIM activities at the ports. The response also
                    stated that the agency developed a combined action plan that will ensure that
                    national AQIM activities are properly managed and implemented at each port.
                    In addition, APHIS established and filled an SES position with a focus on
                    bringing national consistency in the implementation of AQI programs, including
                    AQIM. The first effort of this position is the design and implementation of
                    Standard Operating Procedures. The procedures will be implemented in early
                    2003.

                    OIG Position.

                    Before we agree with the actions described above, we need an explanation of the
                    system that has been put in place to oversee AQIM activities at the ports and
                    when this system was implemented. We also need a description of the
                    combined action plan that was developed to ensure national AQIM activities are
                    properly managed and implemented at each port.



USDA/OIG-Audit No. 33601-3-Ch                                                              9
Recommendation
No. 3          Require the director of each port operating one or more AQIM activities to
               appoint an AQIM Coordinator, and Risk Management Team, to ensure that
               these employees are performing the functions associated with their positions.

                   Agency Response.

                   APHIS agreed with the recommendation. The agency stated that PPQ will
                   revise performance elements and standards that will hold employees and their
                   managers accountable for performing these functions. The State Plant Health
                   Directors or Port Directors will identify a supervisor who will be responsible for
                   maintenance and management of AQIM activities.

                   OIG Position.

                   We agree with APHIS plans to ensure that AQIM coordinators are appointed
                   and Risk Management Teams are in place to perform AQIM functions. Before
                   we can accept management decision, we need the agency’s timeframes for
                   completing these actions.




USDA/OIG-Audit No. 33601-3-Ch                                                              10
Finding No. 3       Potentially Valid AQIM Results Were Not Used To Implement
                    Risk-Mitigation Procedures

                    PPQ generally did not use the results of its AQIM reviews to identify the
                    risks posed by new pathways through which pests and diseases could enter
                    the country, or to evaluate the effectiveness of existing inspection procedures
                    at mitigating those risks. The ports did not always have active Risk
                    Management Teams in place, whose job it would be to review such results
                    and make recommendations for needed changes. Even when ports did make
                    recommended changes, PPQ Headquarters had no system to assess the results
                    of the reviews or to ensure that results obtained at one port could be
                    disseminated to other ports and regional offices. We identified at least one
                    instance in which a previously unknown pathway discovered by one port was
                    allowed to remain open because other ports were not made aware of its
                    existence. In most cases, such pathways would not even be discovered
                    because the reviews that might have identified them were not performed. We
                    concluded that although the AQIM system had shortcomings that reduced its
                    accuracy, the large discrepancies between AQIM and WADS interception
                    rates—which indicated that 8.3 percent of the prohibited plant and animal
                    products in vehicles crossing the borders were actually intercepted—strongly
                    indicated the need for PPQ to reevaluate its current inspection processes.

                    The AQIM Handbook states that it is essential to have an infrastructure such
                    as Risk Management Teams at work locations to deal with risk analysis and
                    to assist management in making risk-based decisions. Based on the results of
                    its reviews, the Risk Management Team may determine that a change in
                    existing inspection patterns at the local port level would improve the overall
                    effectiveness of the inspection programs, and make the necessary
                    recommendations to the port director. If AQIM activities identify a harmful
                    new pest or disease, or a pathway not previously targeted by existing
                    inspection programs, these results should be reported to PPQ Headquarters so
                    that other ports across the country can be put on notice of the newly-
                    discovered threat and can adjust their own inspection patterns accordingly.

                    Of the 25 AQIM activities we reviewed, only 13 had Risk Management
                    Teams assigned, and only 8 of the 13 teams were active in performing
                    AQIM-related duties. We found that in one case where a port did have an
                    active committee and reported pertinent test results, the results were not used
                    to close off a pathway through which harmful pests were entering the country
                    on an ongoing basis. The reports involved tests of cargo aircraft and of
                    shipments of tiles.




USDA/OIG-Audit No. 33601-3-Ch                                                            11
                       Cargo Aircraft

                       On March 9, 2000, the Pest Risk Management Committee for one port,
                       issued a report on the results of an AQIM study of the pest risk posed by
                       cargo aircraft, especially their cargo compartments. This study, titled
                       “Cargo Aircraft as a Pathway of Exotic Pest Introduction,” measured risk
                       by making on-board inspections of 703 randomly selected cargo aircraft
                       that arrived from foreign countries during the period of September 1,
                       1998, through August 31, 1999. Of the 703 samples, 74 (10.5 percent)
                       were found to contain at least one reportable pest. However, cargo aircraft
                       arriving from a specific geographic region revealed a much higher rate,
                       with 49 out of 207 aircraft (23.7 percent) containing actionable pests. The
                       interception rate of reportable pests from this region was substantially
                       higher then the rates observed from any other region, and more than twice
                       the general average.

                       Based on these results, the Pest Risk Management Committee made eight
                       recommendations for corrective actions, including a recommendation that
                       PPQ commit additional resources to board and thoroughly inspect cargo
                       aircraft arriving from areas that produced the highest pest approach rates.
                       However, at the time we interviewed PPQ Headquarters officials
                       regarding this problem in January 2002, nearly 3 years after the issuance
                       of the report, the officials stated that they had taken no action on the
                       committee’s recommendation. They stated that they had not addressed the
                       report’s recommendation because it was not an “official” report performed
                       by PPQ Headquarters, and they had not yet reviewed the report to evaluate
                       the validity of the study’s conclusions.

                       The PPQ Port Director stated that the port had not increased inspections of
                       cargo aircraft because they did not have the resources for such inspection
                       activity.

                       Shipments of Tiles

                       In another AQIM study performed during a period of June 1, 2000,
                       through May 31, 2001, the port surveyed 108 shipments of tiles to
                       determine the extent to which pests were entering the United States
                       through this pathway. The survey disclosed that almost 27 percent of the
                       shipments contained pests considered harmful to United States agriculture
                       industry, such as snails, which were found to attach themselves to the tiles.
                       Other ports that receive shipments of tile should be alerted to this problem
                       so that inspections can be performed.

                       Although this AQIM report was issued on September 28, 2001, PPQ
                       Headquarters has not taken any action to date on this information and has
                       not taken steps to share the information with other ports that receive



USDA/OIG-Audit No. 33601-3-Ch                                                            12
                           shipments of tiles so that more attention could be given to this particular
                           pathway. Headquarters did not regard the study as officially sanctioned.
                           Furthermore, PPQ Headquarters did not require additional inspections of
                           tile shipments or a permit process that requires tile shipments to be
                           fumigated before transit to the United States.

                       The above examples show the value of local AQIM studies in measuring the
                       risk of pests entering the United States through specific pathways. Also of
                       value is a comparison between the interception rates obtained from AQIM
                       studies and the interception rates determined by PPQ’s ongoing inspections,
                       as reflected in the WADS. Such a comparison demonstrates the effectiveness
                       of APHIS’ current inspection programs by showing the number of infested
                       shipments PPQ identifies compared to the number of infested shipments it
                       lets pass uninspected. In both instances where APHIS performed these
                       comparisons, the results were dramatic. Specifically:

                       -    PPQ’s analysis of the category of air passenger baggage in
                            FY 2000 disclosed that 1.5 percent of traditional inspections resulted in
                            interceptions of prohibited products, while 5.9 percent of AQIM
                            inspections resulted in interceptions of prohibited products.

                       -    Similarly, for vehicles entering the country through border crossings,
                            2.8 percent of the AQIM inspections resulted in interceptions of
                            prohibited products, while traditional inspections resulted in only
                            0.2 percent interceptions of prohibited products.

                       Unless the results of AQIM activities generate inspection procedures to
                       reduce the risk posed by the pathways being measured, the activities have
                       little or no value in reducing the introduction of agricultural pests to the
                       United States.

Recommendation
No. 4          Institute procedures to compute the differences between AQIM and actual
               interception rates on an annual basis, and to take actions as appropriate to
               determine the reasons for large discrepancies so that corrective actions can be
               taken.

                    Agency Response.

                    APHIS responded that procedures to compute differences between AQIM and
                    actual interception rates have been in place since 1997. Examples of these
                    analysis for several pathways (air passenger and southern border vehicle) were
                    provided to OIG during the audit. The analysis utilizing AQIM and WADS are
                    the primary measure of the effectiveness of present inspection procedures in
                    these pathways. APHIS also stated that the significance of the risk presented in
                    the gap must be considered. Training sessions and documentation have been
                    provided to PPQ managers to properly use this information. Much of the


USDA/OIG-Audit No. 33601-3-Ch                                                               13
                    prohibited material is low risk and only 1 percent is actually infested with
                    agricultural pest or disease. The agency also stated that they are currently taking
                    corrective action to better mitigate the high risk items in the gap. PPQ’s Port
                    Operations staff met with representatives of the tile industry in February 2002 to
                    begin pest mitigation efforts on pests associated with tile. The results of the
                    discussion were shared with the Eastern Region which in turn disseminated this
                    information to all maritime ports receiving tile from the region in question. The
                    agency stated further that the port presented only a portion of their cargo aircraft
                    study in their findings. The local team discussed cargo aircraft risk mitigation
                    and has revised and implemented new boarding procedures.

                    OIG Position.

                    We agree with the efforts currently being made to utilize WADS and AQIM
                    information to improve the efficiency and effectiveness of AQI port activities
                    and to take corrective action to mitigate the high risk items in the gap. The
                    agency’s meeting with the tile industry demonstrated positive efforts to mitigate
                    the risks of pests associated with tile. We believe that more efforts are needed to
                    measure the gaps between the AQIM and actual interception rates. At the time
                    of the audit, this measurement was made for only two pathways (air passenger
                    and southern border vehicle). The gaps disclosed by the analysis of the two
                    pathways showed a significant difference between the AQIM interception rates
                    and the actual interception rates. We believe that the differences demonstrated a
                    need for APHIS officials to identify and correct the inspection problems that
                    created the major gaps between AQIM and actual inspection rates. A portion of
                    the study of cargo aircraft identified a serious problem with pest infestation of
                    cargo aircraft from specific regions. We believe that the study results should
                    have prompted Headquarters analysis of the results to develop procedures to
                    reduce the risk of pest introduction of pests from cargo aircraft arriving at all
                    U.S. airports.

                    Before we can accept management decision, officials need to develop
                    procedures to analyze the gaps between AQIM and actual inspection rates to
                    identify inspection problems that need corrective actions. Also, they need to
                    develop procedures to mitigate the risk of pest introduction by cargo aircraft.

Recommendation
No. 5          Notify other ports, as applicable, of the results of the two AQIM studies so that
               these pathways can be appropriately covered.




USDA/OIG-Audit No. 33601-3-Ch                                                                14
                     Agency Response.

                     APHIS responded that the Eastern Region notified          the maritime ports that
                     received shipments of tile of the results of the study.   The cargo aircraft study
                     has been turned over to PPQ’s Center for Plant Health     Science and Technology
                     for further analysis, validation, and development of      national pest mitigation
                     strategies or procedures, if appropriate.

                     OIG Position.

                     Before we can reach management decision, APHIS officials need to provide
                     timeframes for PPQ’s analysis of the cargo aircraft study and the development
                     of appropriate national pest mitigation strategies and procedures.

Recommendation
No. 6          Institute procedures to ensure that future AQIM results are reviewed and acted
               upon in a timely manner. Such procedures should include notification of
               applicable regional offices, State Plant Health Directors, and PPQ port directors.

                     Agency Response.

                     The agency responded that PPQ is continuously working to improve notification
                     of AQIM results within and between all levels of the organization. The response
                     provided a list of communication channels that could be used to disseminate
                     information about AQIM results through out the agency.

                     OIG Position.

                     We agree that the agency should continuously work to improve the notification
                     of AQIM results to all levels of the agency. We believe that APHIS needs to
                     develop procedures that will assign this responsibility to specific staff members
                     to ensure that all significant AQIM results are shared with all levels in the
                     agency. Before we can reach management decision, we need agency timeframes
                     for the development and issuance of these procedures.




USDA/OIG-Audit No. 33601-3-Ch                                                                15
USDA/OIG-Audit No. 33601-3-Ch   16
Objective 2: Staffing

                  PPQ did not always distribute its resources according to the magnitude of
                  risk or traffic volume. PPQ assigned the greater share of its inspection staff
                  to inspect the baggage of air passengers. PPQ officials considered other
                  pathways as low risk based either on studies it had performed or on the
                  assumption that the U.S. Customs Service would notify APHIS of any
                  agricultural inspection needs. We found that these other pathways either
                  revealed a risk as high as air passenger arrivals or experienced a volume of
                  traffic great enough to require a full-time USDA presence.

                  Title 7, CFR 330.105, dated January 1, 2000, states that in order to prevent
                  the dissemination of plant pests and diseases into the United States from any
                  place outside the United States, any imported product shall be subject to
                  inspection by an inspector at the port of first arrival.

                  PPQ assigned the majority of its inspectors to air terminals based on its
                  analysis of risk, volume of traffic, and logistics. The Airport and Maritime
                  Operations Manual stated “The inspection of passengers and their baggage is
                  the highest priority of PPQ at airports since it represents the avenue of
                  highest risk for pest introduction.” PPQ counts the number of times that
                  pests or prohibited products are intercepted at various ports of entry from
                  various carriers (air passengers, air cargo, etc.), and the ratio of interceptions
                  to the total inspections for that pathway reflects the risk of the pathway. The
                  volume of traffic itself is given added weight to staffing considerations. For
                  example, international air passenger flights arrive hourly at selected airports
                  and consequently account for a concentration of inspectors at airports.

                  PPQ staffing allocations were based on the regional office’s analysis of port
                  logistics, data reported in the Work Accomplishment Data System (WADS),
                  and their determination of the port’s staffing needs. Staffing was assigned to
                  border crossings and to the inspection of air, maritime, and rail cargo
                  shipments as a result of these analyses. Staffing was assigned to the clearing
                  of cruise ships based on a separate study of six ports. We found flaws in the
                  cruise ship study. We also noted that PPQ staffing allocations on one border
                  did not take into consideration the volume of traffic at each border crossing.
                  For example, several inspectors were assigned to one border crossing, while
                  only one inspector was assigned to another even though the latter had almost
                  3 times more truck traffic and almost 10 times more rail traffic.

                  It was through one of these pathways that a pest destructive to hardwood
                  trees, the Asian longhorned beetle, is believed to have entered the United
                  States.




USDA/OIG-Audit No. 33601-3-Ch                                                                17
Finding No. 4.      PPQ Needs to Strengthen Inspection Coverage at Border
                    Crossings

                    Inspection coverage at border crossings needed strengthening to provide a
                    reasonable barrier against incoming pests and diseases, or to detect
                    improperly marked cargo.             APHIS Headquarters officials had
                    traditionally considered one border a low risk and therefore did not
                    approve hiring additional staff along it. These officials also indicated
                    they relied on the U.S. Customs Service to refer all agricultural products
                    to PPQ for inspection. However, Customs inspectors do not necessarily
                    possess the expertise to recognize potential problems with incoming
                    agricultural shipments. Furthermore, regional PPQ managers have stated
                    that they need additional staff at this border to monitor transient cargoes.

                    Although all crossings on this border were staffed by U.S. Customs, not
                    all were staffed by PPQ. According to APHIS officials, of those
                    crossings that had PPQ employees assigned to them as of January 2002,
                    several of the crossings were staffed by 2 or fewer inspectors

                    Because of these staffing shortages, PPQ was not always able to: provide
                    24-hour inspection coverage; inspect a reasonable percent of the total
                    traffic flowing through the staffed border crossings; complete thorough
                    inspections of the traffic selected for inspection; and inspect rail
                    containers at all staffed crossings. Of the border crossings not staffed by
                    PPQ, seven had a significant number of trucks entering the United States.
                    Three of these had significant rail traffic as well. We concluded that PPQ
                    should staff at least these seven border crossings in addition to the ones
                    already staffed. PPQ should similarly assess the other crossings to
                    determine the number of inspectors needed at each crossing.

                    An APHIS Headquarters official stated that U.S. Customs referred all
                    agricultural products to PPQ for inspection. However, based on our work
                    at the border crossings, we determined that this did not always occur.
                    PPQ border personnel informed us that when PPQ is not present, U.S.
                    Customs releases all agricultural shipments that PPQ did not specifically
                    request them in writing to hold. At one border crossing, U.S. Customs
                    officials informed us that they did not always make referrals to PPQ when
                    PPQ was not present. Therefore, they would allow entry of these trucks
                    into the United States. A comparison of the interception rates involving
                    vehicles varied considerably between one border crossing which was
                    staffed by PPQ, and a nearby crossing which was not. The number of
                    interceptions was nearly 10 times greater for the month of June 2001.

                    We found that one port established a second shift that allowed them to
                    inspect a higher percentage of vehicles than ports with one shift. PPQ


USDA/OIG-Audit No. 33601-3-Ch                                                            18
                       officials stated that the second shift worked well where it was
                       implemented, and allowed inspection of a larger percentage of incoming
                       traffic.

                       In conclusion, we found that PPQ did not staff all border crossings.
                       Although most border crossings were open 24 hours a day, not many
                       ports established two shifts. The interception rates were much higher at
                       ports staffed by PPQ inspectors, compared to ports where PPQ relied on
                       U.S. Customs to perform the inspections. We determined that PPQ
                       needed to assess the number of inspectors needed at each of the border
                       crossings to adequately inspect the growing volume of trucks and
                       passenger vehicles crossing the border.

Recommendation
No. 7          Assess in a timely manner the number of PPQ inspectors that are needed,
               and whether a second shift is needed at each border crossing to address the
               growing concern over inspections at this border.

                    Agency Response.

                    APHIS officials stated that assessment of border staffing was done in 2001
                    and revisited in 2002, with 11 new employees having been brought on board
                    since 2001. In the FY 2004 budget, APHIS requested 126 new inspector
                    positions along the border. Shift work has been implemented at one border
                    crossing, and is planned for some other locations; however, shifts cannot be
                    implemented until staffing has been increased. Future reassessment of
                    staffing along the border will occur as ports continue to collect AQIM data.

                    APHIS plans to place new PPQ officers at ports with large volumes of cargo
                    traffic, but in some locations intensive inspections cannot be performed until
                    needed office space and inspection facilities are built. USDA is negotiating
                    with the General Services Administration on a long-range plan to meet these
                    infrastructure needs. PPQ has requested approximately $3.5 million for
                    improvements to inspection facilities along the border as part of the
                    FY 2004 budget.       In addition, discussions have begun with foreign
                    agriculture officials regarding possible sharing of existing border facilities.
                    PPQ expects these facilities to become available in 2005 or 2006.

                    OIG Position.

                    We concur with the actions being taken by APHIS. To reach a management
                    decision, APHIS officials need to provide us with the agency’s estimated
                    timeframes to complete a full assessment of the staffing needs for the border.
                    Final action would take place upon the actual completion of the assessments.




USDA/OIG-Audit No. 33601-3-Ch                                                               19
Finding No. 5.    PPQ Staffing Allocations Need To Consider The Volume Of
                  Product Intercepted From Incoming Air, Maritime, And Rail
                  Cargo

                  PPQ’s inspection coverage for cargo shipments at all ports of arrival was not
                  based on adequate analysis of the volume and distribution of incoming
                  cargoes. PPQ policy gave priority to inspection of air passenger baggage
                  rather than cargo shipments. As a result, large volumes of cargo could enter
                  the United States without being subject to PPQ inspection. This increased
                  the chances of pest infestations such as the Asian Longhorned Beetle, which
                  infested the hardwood trees in several areas of the United States.

                  The Airport and Maritime Operations Manual ranks clearing passengers first
                  and air cargo second out of seven tasks at the airports in the prevention of
                  the introduction of pests.

                  We compared the air passenger staffing levels at eight airports to the staffing
                  levels for cargo facilities located in the same cities. Our reviews of
                  inspection activities at the various worksites disclosed that additional and
                  more intensive inspections were needed for cargo shipments. At the 8 PPQ
                  airport sites we visited, 271,511 air cargo inspections identified
                  9,730 reportable pests for a 3.6 percent interception rate during FY 2000. In
                  comparison, 4,508,173 passenger baggage inspections identified
                  8,444 reportable pests for an interception rate of less than 0.2 percent during
                  the same period. Based on the interception ratios, we concluded that
                  additional efforts with air cargo could result in a substantial increase in pest
                  interceptions.

                  PPQ had developed staffing models to determine the number of employees
                  needed to perform inspections of air passenger baggage, air cargo, maritime
                  cargo, and rail cargo. A 12-month period was used for the historical basis of
                  activity at each port. Four models were created: airport, maritime,
                  inspection station, and Mexican border crossing.

                  PPQ officials stated that these staffing models worked well for the air
                  passenger clearance function but did not work well for cargo because of the
                  variance in activities. Furthermore, PPQ did not always base staff
                  allocations on the staffing models. To determine the needs of any given
                  port, PPQ emphasized the regional office’s analysis at the port. As part of
                  their staffing allocation review, regional PPQ offices analyze activity levels
                  reported on the WADS report and on inspection reports, and regional
                  officials visit each port to observe the logistics. We found three main
                  problems with PPQ’s staffing analysis: it did not take into account the
                  volume of the interceptions, it did not take into account the size and potential




USDA/OIG-Audit No. 33601-3-Ch                                                              20
                  distribution of the product, and it relied on WADS data that was not
                  accurate. (For the issue of WADS accuracy, see Finding 12.)

                     Staffing did not account for differences in the volume of interceptions.
                     By reviewing the WADS interception data, PPQ was placing more
                     emphasis on numbers of interceptions than on their magnitude. We
                     found that the WADS report gives the same significance to the
                     interception of one piece of fruit from a passenger as it does to the
                     interception of a 2000-pound case of fruit from a cargo shipment—both
                     are reported as one interception. If PPQ seizes three different pieces of
                     fruit from one passenger, it counts these as three interceptions, while if it
                     finds a large shipment of prohibited fruit in a cargo shipment, it counts
                     this as one interception. Likewise, a pest interception from these
                     shipments would be recorded as one reportable pest in each case, even
                     though a cargo shipment could contain large numbers of that reportable
                     pest.

                     Staffing did not account for differences in size and potential distribution
                     of the product. Large cargo shipments of agricultural product are
                     normally broken down into smaller boxes for further distribution,
                     whereas the contents of passenger baggage will likely have only one
                     destination. PPQ did not include the size of the intercepted product as a
                     factor in staffing considerations. For example, during one air cargo
                     inspection PPQ intercepted 5.9 tons of product infested with exotic pests,
                     and during one maritime cargo inspection, it intercepted 55 tons of
                     product infested with pests. The largest air passenger interception on
                     record was only 30 pounds of prohibited product. Hundreds or
                     thousands of boxes of product from a cargo shipment could, through
                     redistribution, pose a more serious threat than one or two pieces of
                     product smuggled by a passenger. If the cargo product is infested with
                     actionable pests, crops in many different areas in the United States could
                     be exposed to those pests.

                  The contrast in staffing between airports and adjacent seaports, and the
                  results of that staffing, was best demonstrated at one port of arrival. This
                  maritime port inspected 8,262 of 4.4 million containers in FY 2000, or
                  0.2 percent of the containers that entered the United States through that port.
                  Their inspections resulted in 379 reportable pest interceptions, or an
                  interception rate of 4.6 percent. In contrast, a nearby airport, with a larger
                  staff to inspect air passengers and air cargo, performed 869,595 passenger
                  inspections and 47,415 cargo inspections. These inspections resulted in
                  3,694 reportable pest interceptions from air passenger baggage, or a pest
                  interception rate of 0.4 percent, and 1,238 pest interceptions from air cargo
                  shipments, or a pest interception rate of 2.6 percent.




USDA/OIG-Audit No. 33601-3-Ch                                                              21
                    The need for more inspection of cargo can also be demonstrated by the
                    volume of rail containers entering the United States through one worksite.
                    During fiscal year 2000, over 320,000 loaded rail containers entered the
                    United States through this worksite. An inspector assigned to the worksite
                    stated that he concentrated on passenger vehicle and truck cargo inspections.
                    He also did not review shipping manifests to determine if any of the
                    shipments were of agriculture interest and subject to inspection by PPQ in
                    other areas, which receive 90 percent of the rail shipments entering the
                    United States. The remaining 10 percent of the rail cars, approximately
                    32,000, were destined for locations not staffed by PPQ and therefore not
                    subject to PPQ inspection.

Recommendation
No. 8          Perform a staffing assessment, taking into account the size and weight of the
               interceptions, to determine the staffing levels needed to perform inspections
               at air cargo, maritime cargo, and border crossings. If needed, seek additional
               funding from Congress to bring staffing to needed levels.

                    Agency Response.

                    APHIS officials responded that PPQ requires Port Directors to annually
                    assess staffing needs; also, a systematic review of ports was implemented in
                    November 2001. Teams from Headquarters and each regional office
                    reviewed staffing at major ports of entry, and assessed the ports’ needs based
                    on the volume and type of cargo entering the port, the risk associated with
                    the cargo, capacity of port facilities, and intensity of inspections needed.
                    Based on the findings, the teams submit reports to the applicable regional
                    offices. Officials stated that funding is not currently a barrier, but the
                    agency is experiencing problems with recruiting sufficient qualified
                    personnel at high-volume locations due to the cost of living in such areas.
                    PPQ has revitalized its recruitment efforts with the appointment of a full-
                    time coordinator, a focus on local recruiting, and pre-employment testing to
                    ensure high-quality candidates.

                    OIG Position.

                    In our previous discussions with PPQ officials, the above-referenced study
                    had not been brought to our attention; thus, we have had no opportunity to
                    analyze or evaluate it. In order to reach management decision on this
                    recommendation, APHIS needs to provide us with clarification as to whether
                    this study was a one-time project or part of an ongoing, multi-year effort. If
                    the review has been completed, APHIS needs to provide us with it
                    conclusions resulting from the study and its plans to implement the needed
                    staffing changes, including timeframes. If the study is still ongoing, APHIS
                    needs to additionally provide us with the timeframes for its completion.




USDA/OIG-Audit No. 33601-3-Ch                                                              22
Recommendation
No. 9          Based on the assessment recommended above, ensure that PPQ personnel
               currently at the ports are adequately allocated, so that inspections of cargo
               shipments allow for performing a higher percentage of intensive inspections.

                    Agency Response.

                    PPQ officials agreed that ports need to be adequately staffed to allow for
                    efficient and effective inspections of cargo shipments. The corrective
                    actions for this recommendation are included in the response to
                    Recommendation No. 8.

                    OIG Position.

                    As noted under Recommendation No. 8, to reach management decision
                    APHIS officials need to provide us with their plan for reallocating personnel
                    based on the stated criteria, including timeframes for completion of the
                    necessary corrective actions.


Finding No. 6.      PPQ Needs to Improve Inspections of Cruise Ships

                    PPQ did not ensure that cruise passengers and baggage arriving from foreign
                    ports received inspection coverage commensurate with the risk. The agency
                    made assignments on the premise that considered cruise ships to be low risk
                    based on the results of a 12-month national study. The results of this study
                    were flawed, however, because the sample was not randomly selected and
                    did not include cruises arriving on weekends from countries classified as
                    high risk. One port found during an independent study that 76 percent of
                    cruise ships arriving from foreign ports carried harmful insects on their
                    decks.

                    The Airport and Maritime Operations Manual, dated January 2000-2001,
                    pages 3.101 and 3.102, states that “Inspection is divided into two phases,
                    primary and secondary inspection. Primary inspection involves the
                    screening of baggage by questioning the passenger, reviewing the
                    declaration, and visually observing the passenger’s baggage for referral for
                    further examination. All persons and baggage are subject to inspection at
                    the port of arrival. Secondary inspection can consist of as little as detailed
                    questioning or as much as a thorough inspection of passenger’s baggage.” It
                    also states “High risk baggage should receive a thorough examination.”

                    APHIS performed a 12-month national study, ending in April 1999, tracking
                    cruise ships arriving from the Bahamas, Mexico and the Caribbean at six
                    ports in the United States. Based on this study, APHIS officials concluded
                    that all cruise ships were low risk and assigned only one or two PPQ
                    inspectors per cruise ship. We found several deficiencies with the study:


USDA/OIG-Audit No. 33601-3-Ch                                                              23
                               The cruise ships were not selected on a random basis, and only three
                               passengers per cruise ship were sampled;

                               Cruises arriving on the weekend were excluded from the study. PPQ
                               management did not approve inspectors to work the overtime necessary
                               to include cruises arriving on the weekend; and

                               The six-port study included only cruises arriving from the Bahamas,
                               Mexico, and the Caribbean, which are low-and-medium risk countries3
                               Cruises from high-risk countries such as Jamaica, Haiti, Colombia, and
                               Ecuador arrived on weekends and therefore were excluded from the
                               study.

                           The PPQ Animal Products Manual identified Foot and Mouth Disease in
                           Ecuador and hog cholera in Ecuador and Jamaica. Many different species of
                           pests have been identified in cut flowers from South America and the West
                           Indies. None of the cruises from these countries were included in the
                           national study.

                           On the basis of the six-port national study, PPQ issued its policy concerning
                           inspection of cruise ships. That policy, dated August 22, 2000, states that
                           “Passengers and baggage on Caribbean, Mexican, and Bermuda cruise ships
                           will not be routinely cleared by PPQ…. Exceptions may be made to any
                           voyage determined to be high risk or out-of-the-ordinary by the local port
                           with concurrence of the regional staffs.”

                           We reviewed the documentation provided to us, and found that no pests
                           were intercepted during the study but that prohibited products were. The
                           interception rate for the prohibited product was 2.7 percent at the six ports,
                           comparable to the interception rate found in the AQIM inspections of air
                           passengers (2.6 percent for the Central and Western Region in FY 2000).
                           APHIS considers air passengers to be of the highest priority.

                           PPQ officials at one of the six ports used in the national study also
                           performed their own pilot study of cruise ships arriving on Monday through
                           Friday; again, PPQ management did not allow the inspectors to work
                           overtime. However, even under these conditions, the study found that 16 of
                           the 21 inspected cruise ships contained families of live insects on the decks
                           (76-percent infestation rate). In addition, this study included boarding the
                           ships to review the decks which found harmful pests whereas the National
                           study did not. For example, a large termite swarm was visible throughout
                           one ship. The independent study concluded that cruise ship decks were a
                           potentially important pathway of pest introduction from the Caribbean basin.

3
 The Risk Assessment of Countries by Geographic Area contained in the APHIS PPQ Work Accomplishment Data System (WADS)
manual classified countries as high, medium, or low risk.



USDA/OIG-Audit No. 33601-3-Ch                                                                                   24
                     At this port, we discussed with PPQ inspectors their procedures for
                     inspecting cruise ships. We found that they assign one PPQ officer to
                     monitor the disposal of garbage on the ship, review the garbage records
                     maintained by the cruise ship, inspect the refrigerator and freezer storage,
                     inspect the incinerator room, and then observe and inspect passengers as
                     they disembark. Sometimes a second inspector is assigned, if available. In
                     contrast, PPQ normally assigns between 6 and 11 officers and technicians to
                     clear a single international airline flight and inspect 200 to 300 passengers.

                     We accompanied a PPQ officer clearing a cruise ship with 2,300 passengers
                     that arrived from Jamaica, a high-risk country, and the Cayman Islands.
                     During the inspection of the refrigerator, the inspector documented various
                     prohibited fruits and vegetables originating from Costa Rica, Guatemala, the
                     Dominican Republic, and Chile. After the inspection of the ship and review
                     of the documentation, two PPQ inspectors observed the passengers
                     disembarking. We found that there were too many passengers for one or two
                     PPQ inspectors to question or search effectively. As noted above, the
                     Airport and Maritime Operations Manual states that all persons and baggage
                     should be subject to inspection at the port of arrival. Since this ship arrived
                     from a high-risk country, there could be a risk that passengers could bring
                     prohibited products into the United States.

                     PPQ officials suggested that a study be performed of cruise ships arriving on
                     the weekends; so that they can assess the pest risk of such cruises. Air
                     passengers from Jamaica are considered high risk for prohibited products
                     such as yams, but PPQ has not assessed whether the same risk exists for
                     cruise passengers. As of the date of our visit, PPQ in this port had not
                     received approval to perform the study.

                     In response to a March 2000 OIG audit of PPQ activities, in which OIG
                     recommended that PPQ assign sufficient staff/resources to properly process
                     cruise ship passengers arriving from foreign ports, PPQ stated that they had
                     begun a new initiative to increase the number of compliance agreements
                     with cruise ships to free up PPQ staff to perform other functions. At the
                     time of our audit; however, no changes had been implemented.

Recommendation
No. 10         Perform a national study of cruises from countries classified as high risk,
               such as Jamaica, to assess the risk of introducing exotic pests or diseases into
               the United States, to determine whether increased inspection of cruise ships
               is warranted. Based on the results of this study, develop inspection
               procedures for cruises from high-risk countries.




USDA/OIG-Audit No. 33601-3-Ch                                                                25
                  Agency Response.

                  PPQ officials stated that a new risk assessment of foreign vessels (garbage,
                  deck, and structure) entering U.S. ports was completed in early 2002 and its
                  results submitted to the PPQ regional offices for comment. Once these
                  comments are considered, PPQ will revise the national ship-boarding policy
                  as needed to further mitigate risk. This is expected to be completed by
                  March 30, 2003.

                  PPQ officials agreed that it may be desirable to perform an assessment to
                  identify whether cruises from countries already classified as high risk are
                  actually “high risk” when arriving at U.S. ports of entry. Port Operations
                  will submit a request to perform such an assessment. The response noted
                  that vacation cruises from various ports, including Jamaica, were the subject
                  of the Cruise Ship Monitoring Survey conducted from April 1998 to March
                  1999. Jamaica is not a high-risk origin for cruise ship passengers based on
                  years of operational data from WADS, pest interception data, and the 1998-
                  1999 survey. They noted that while ships may stop in Jamaica, both the
                  ships and passengers originate in the U.S. By contrast, air passengers from
                  Jamaica may be from any location and thus the potential is there for them to
                  bring items purchased commercially or home grown.

                  OIG Position.

                  The purpose of our finding was not to conclude or suggest that the relative
                  risk of incoming cruise ships was proportionally greater than that of
                  incoming air traffic. Nonetheless, even though cruise passengers are
                  generally Americans, they still have the opportunity to obtain prohibited
                  items from foreign ports just as air passengers would. Our recommendation
                  was simply that PPQ perform reliable studies to evaluate the relative degree
                  of risk for staffing assessment purposes.

                  We were not previously aware of the 2002 study referenced in the response,
                  and thus cannot comment upon its methods or results. However, our audit
                  did disclose limitations on both the WADS system and the earlier cruise ship
                  studies that could call into question any risk-assessments based solely on
                  these sources.

                  We do concur with PPQ’s action in performing a new study of cruise ships,
                  and with the timeframes for issuance of revised ship-boarding policies. To
                  reach a management decision, APHIS officials need to provide us with a
                  copy of the referenced 2002 study, as well as a description of the new
                  policies that will be implemented as a result.




USDA/OIG-Audit No. 33601-3-Ch                                                            26
Recommendation
No. 11         Based on the results of the studies, determine the number of inspectors
               needed to clear cruise ships so that all passengers and baggage are subject to
               inspection.

                    Agency Response.

                    PPQ officials stated that the agency is in the process of revising its policy
                    and procedures for the clearance of cruise ships and their passenger baggage
                    for Caribbean, Mexican, and Bermudan cruises. As noted in the response to
                    Recommendation No. 10, new policy on these types of cruises should be
                    issued within 6 months.         Appropriate staffing levels, policies, and
                    procedures for cruise ships from destinations other than those listed above
                    will be determined after CPHST conducts assessments to identify the risk of
                    cruise ships arriving from other countries. This study is expected to be
                    completed within 12 months.

                    OIG Position.

                    We agree with the actions and timeframes contained in the response.
                    Management decision for this recommendation can be reached when the
                    additional information requested for Recommendation No. 10 has been
                    provided.




USDA/OIG-Audit No. 33601-3-Ch                                                              27
USDA/OIG-Audit No. 33601-3-Ch   28
Objective 3: Agricultural Quarantine Inspections


                  As constituted, PPQ’s inspection activities do not result in the most efficient
                  means of detecting foreign pests and diseases at U.S. ports and borders. We
                  concluded that inspection activities could be more efficient if APHIS
                  established requirements for these activities at the ports of entry and if it
                  emphasized the guidelines that were already in place. In the absence of
                  requirements, PPQ inspectors:

                     seldom made in-depth inspections of cargo, even on a sampling basis;
                     and

                     provided little or no monitoring of shipments crossing the border under
                     the Line Release Program.

                  PPQ did not use WADS reporting data to determine the amount of risk
                  associated with rail traffic and consequently did not assign a staff
                  commensurate with the volume of traffic. PPQ also provided little or no
                  monitoring of the disposal of foreign garbage because few ports had
                  compliance officers on hand to perform the monitoring. In addition, PPQ
                  made no concerted attempt to target importers with a history of smuggling
                  for increased monitoring.


Finding No. 7.    More Thorough Inspections of Containers Needed to Detect
                  Pests and Diseases

                  We found that other than as part of the AQIM process, PPQ infrequently
                  unloaded incoming freight containers to perform a comprehensive inspection
                  of their contents. Under PPQ’s AQIM procedures, inspectors would be
                  required to unload (“devan”) selected containers; however, as noted in
                  Finding No. 4, certain pathways such as rail shipments are not covered by
                  AQIM, and thus are not subject to devanning. In addition, PPQ inspectors at
                  some ports of entry stated that they are unable to unload containers because
                  they lacked either the necessary personnel or facilities; inspectors at other
                  ports stated their reluctance to devan cargoes because of the time and cost.
                  A study performed jointly by PPQ and a State has shown that the majority
                  of pests and diseases that may be in a given shipment are not likely to be
                  detected by traditional inspections which concentrate on only a portion of
                  the containers.

                  APHIS’ Aircraft and Maritime Operations Manual, Chapter 3-5 (dated
                  December 1, 2001) states that when a PPQ officer determines that a
                  particular shipment contains items of agricultural interest and selects it for
                  inspection, the inspection requirement can be met through either of two



USDA/OIG-Audit No. 33601-3-Ch                                                             29
                               methods. One of these involves a simple review of the manifest or other
                               paperwork accompanying the shipment.

                               These inspections generally preclude the PPQ inspector from actually
                               observing all of the cargo. PPQ officials have stated that the time and
                               expense of devanning shipments would preclude any possibility of making
                               this the standard method for performing inspections of incoming freight
                               containers. We agree that completely unloading all incoming containers
                               would not be possible, except on a test basis or in cases where a container
                               may hold cargo known to be high risk. A study performed jointly by PPQ
                               and a State Department of Agriculture4 indicated that, on average, partial
                               inspections would miss about 60 percent of the pests that would be found by
                               actually unloading complete cargoes.

                               At one port, WADS data on incoming maritime containers indicated an
                               overall reportable pest interception rate of about 2.0 percent. AQIM studies
                               performed on incoming maritime cargoes during this same period, which
                               involved devanning the containers, disclosed a pest interception rate of about
                               20.3 percent. This interception rate could be higher than those for other
                               ports because this port has an active Risk Management Team that has taken
                               innovative approaches in handling its AQIM process. Nevertheless, these
                               figures do help to illustrate an effective means of identifying and
                               intercepting pests or mismanifested cargoes.

                               The interception rates PPQ has experienced from devanning containers for
                               AQIM purposes or for special studies demonstrates that this practice should
                               be part of all inspection programs. Thus, we believe that each port of entry
                               should have a plan in place to devan randomly-selected containers on a
                               periodic basis, so that any incoming container would have at least a chance
                               of being selected. In addition, PPQ should require more frequent devanning
                               of cargoes deemed to be of high-risk, as well as cargoes being handled by
                               shippers and importers with a history of smuggling or other compliance
                               problems. Ports and crossings, which do not currently have facilities
                               available to devan cargoes, should seek to make arrangements with the U.S.
                               Customs Service to share facilities that Customs either operates or contracts
                               with. Through these means, PPQ could reduce the potential for smuggling
                               and increase its chances of detecting incoming pests and diseases present
                               inside incoming cargo containers.

Recommendation
No. 12         Institute procedures for all ports to devan a sample of incoming cargo
               containers on an ongoing basis, with emphasis to be placed on high-risk
               shipments and cargoes which involve shippers and importers with histories
               of smuggling or other violations.

4
    Final Report on Cooperative Efforts to Manage Pest Risk in South Florida, dated August 1996.



USDA/OIG-Audit No. 33601-3-Ch                                                                         30
                    Agency Response.

                    PPQ officials noted that ports participating in AQIM projects already devan
                    selected cargo shipments, and current SITC protocols require devanning for
                    thorough investigations of possible smuggling of prohibited cargo. Soon,
                    guidance will be provided to PPQ ports to ensure that the appropriate
                    inspection intensity is applied consistently to high-risk cargo. Uniform
                    procedures will ensure that all ports are devanning a sample of cargo
                    containers, dependent on available facilities and resources. This guidance
                    will be developed and distributed to PPQ personnel by June 2003.

                    OIG Position.

                    We accept APHIS’ management decision. Final action can be reached upon
                    issuance of the proposed guidance.

Recommendation
No.13          Ensure that each port-of-entry has personnel and facilities available, either
               directly or under agreements with the U.S. Customs Service, to enable them
               to devan containers as needed.

                    Agency Response.

                    PPQ officials responded that they are working with GSA to obtain additional
                    facilities for inspection and devanning at ports-of-entry. The FY 2004
                    budget for PPQ allocates approximately $3.5 million for improvements to
                    border inspection facilities, and PPQ is exploring the contracting process
                    required to establish Cargo Examination Sites at ports with limited
                    inspection facilities. Such sites would provide additional devanning
                    locations. Also, as part of the FY 2004 budget PPQ has requested 126 new
                    inspector positions.

                    OIG Position.

                    To reach a management decision, APHIS needs to provide us with its
                    timeframes for having the necessary facilities, procedures, and personnel in
                    place to ensure that each PPQ-staffed port of entry is devanning selected
                    cargoes, either directly or through contractual arrangements with U.S.
                    Customs or other entities.


Finding No. 8.      Controls Over the Line Release Program Need Strengthening

                    PPQ has not established any written, formal procedures for the review and
                    approval of applications for participation in the Line Release Program, under
                    which shippers and importers can bring in products deemed to be high-


USDA/OIG-Audit No. 33601-3-Ch                                                             31
                  volume and low-risk with little or no inspection. In addition, the agency has
                  not developed guidelines for enforcement actions to be taken against
                  program participants who are found to be involved in smuggling or other
                  serious violations. A PPQ Headquarters official stated that APHIS had not
                  developed such controls or procedures because the Line Release Program is
                  actually a U.S. Customs Service program in which PPQ merely participates
                  when products of agricultural interest are involved.

                  Without the controls provided by procedures for determining eligibility,
                  monitoring compliance, and enforcing regulations, PPQ has no assurance
                  that agricultural products shipped into the United States under this program
                  are free of pests and diseases. In at least two instances, our review found
                  that APHIS was aware of shippers who were involved in smuggling
                  activities but did not take timely action to restrict their participation or
                  remove the shippers from the program.

                  The U.S. Customs Service requires a broker or importer to submit an
                  application that includes a sample of an actual invoice for the products to be
                  processed under the Line Release Program. To qualify for the program the
                  shipper, importer, and commodity must have a history of invoice accuracy,
                  be free of enforcement concerns, and be selected by local Customs districts
                  on the basis of high volume and risk assessment. Customs’ approval for line
                  release allows the shipment to enter the country without inspection. A U.S.
                  Customs compliance directive dated June 25, 1997, outlines the
                  requirements and procedures for conducting compliance measurement
                  programs such as the Line Release Program. However, these Customs
                  procedures do not specify any coordination with APHIS, or outline the
                  responsibilities of each agency with respect to the other. A Customs Service
                  official stated that it is the responsibility of each U.S. Customs Service port
                  of entry to develop and implement a monitoring system for the Line Release
                  Program.

                  The U.S. Customs Service verifies the information contained in each line
                  release application against the information contained in its own database
                  before it is presented to PPQ. As part of this screening process, Customs
                  checks for any evidence of serious program violations committed by the
                  applicant. However, since APHIS has no specific requirement to report to
                  Customs all violations involving agricultural products, there is no assurance
                  that Customs’ screening process would disclose such instances.

                  Once Customs has completed its own screening, any application involving
                  agricultural products is then given to PPQ for review before Customs
                  authorizes the importer to participate in the program. Applications for
                  approval involving agricultural products are processed and approved on
                  behalf of APHIS by a PPQ officer specially designated for this function.




USDA/OIG-Audit No. 33601-3-Ch                                                             32
                  Applications not involving agricultural products are handled directly by U.S.
                  Customs, with no involvement by PPQ.

                  PPQ participates in the Line Release Program at nine border crossings.
                  Although another Border Cargo Release Program is operated by APHIS and
                  Customs, that program is separate and distinct from the cited program and
                  was found to have more effective procedures in place for eligibility
                  determinations and enforcement actions. Although air and maritime cargoes
                  are also theoretically covered by Line Release Programs, we found that no
                  shipper or importer had participated in the programs. PPQ officials stated
                  that their Line Release Program requirements were so stringent that shippers
                  and importers did not participate in the programs.

                  Our visits to four border crossings, as well as discussions with PPQ’s
                  program coordinator, disclosed that PPQ has not established meaningful
                  eligibility guidelines for the approval of importers to ship agricultural
                  products into the country under Customs’ Line Release Program. We also
                  found that PPQ does not periodically inspect shippers and importers
                  participating in the Line Release Program, and that no specific procedures
                  exist for enforcement actions to be taken against program participants found
                  to be committing acts of smuggling or other serious violations. The
                  following paragraphs describe the conditions we noted.

                  Lack of PPQ Eligibility Guidelines For The Approval of Importers

                  Overall, we found that PPQ has not implemented requirements and
                  procedures that would assist the U.S. Customs Service, port directors, and
                  the Line Release Program Coordinator in identifying and rejecting applicants
                  for the Line Release Program who have histories of smuggling activities or
                  other serious violations. For instance, although the U.S. Customs Service
                  performs its own screening of applicants before sending them to PPQ for
                  approval, this process may not be effective because there is no requirement
                  for PPQ personnel at border crossings to enter instances of smuggling or
                  other serious violations into Customs’ Treasury Enforcement
                  Communications (TEC) System. Since this is the system used by Customs
                  during its screening process for line release applications, an applicant
                  involved in previous violations involving agricultural products may not be
                  detected by Customs before the application is given to PPQ for approval.

                  The PPQ program coordinator, who is responsible for reviewing and
                  approving all line release applications, stated that when an application is
                  received from U.S. Customs, the review process includes a discussion with
                  the applicable port director regarding their knowledge, if any, of the
                  applicant’s compliance history. PPQ approves or disapproves an application
                  based on the recommendation of the applicable port director. [




USDA/OIG-Audit No. 33601-3-Ch                                                            33
                           ].

                  We also found that the approving PPQ officer did not use the PPQ
                  Smuggling Interdiction and Trade Compliance (SITC) violators’ database,
                  which identifies known smugglers and other serious violators, to screen
                  applicants for the Line Release Program. She stated that she had not been
                  aware of the existence of this database prior to the time of our review.
                  [



                     ].

                  Lack of Controls To Ensure Periodical inspection of Importers

                  We found that PPQ personnel at the border crossings we visited did not
                  periodically inspect shipments entering the country under the Line Release
                  program to test for compliance by approved shippers and importers. [




                                                                            ].

                  Lack of Specific Procedures For Enforcement Actions To Be Taken Against
                  Violators Already Participating In The Program

                  In cases where Line Release Program participants are found to be
                  committing serious violations such as smuggling, there is no procedure for [




USDA/OIG-Audit No. 33601-3-Ch                                                           34
                                                                            ].

                  In another instance, PPQ officials were aware that a shipper was involved in
                  smuggling as far back as December 1997. However, the shipper was not
                  removed from the Line Release Program until February 2001, following a
                  review of the shipper’s activities by OIG-Investigations and APHIS
                  Investigative and Enforcement Services (IES).

                  In contrast, PPQ did develop procedures for the Border Cargo Release
                  Program, which is the equivalent of the Line Release Program. This
                  program includes guidelines that provide for approving products to be
                  included in the program, spot-checking of shipments for compliance
                  purposes, and the imposition of sanctions when shippers are found to be
                  smuggling. To ensure the integrity of PPQ’s participation in the program,
                  the agency needs to have procedures in place to identify importers and
                  shippers involved in smuggling and other serious violations and notify U.S.
                  Customs so they can be removed from the program.

                  On April 5, 2002, we issued a Management Alert to APHIS Headquarters
                  regarding the Line Release Program. In its response to the Management




USDA/OIG-Audit No. 33601-3-Ch                                                           35
                    Alert dated April 19, 2002, APHIS agreed to develop written procedures
                    governing the Line Release Program and investigate the automation of the
                    current system.

Recommendation
No. 14         Develop written procedures governing the Line Release Program.

                    Agency Response.

                    The agency agreed with the recommendation. A group has been formed, the
                    BRASS Review Group, with representatives from nine border service ports,
                    the Eastern and Western Regions, and Headquarters. PPQ officials
                    estimated that this task would be completed within approximately 6 months.

                    OIG Position.

                    We concur with the actions proposed by APHIS. However, we note that
                    these are the same corrective actions proposed in the agency’s response to
                    our Management Alert, which was provided to us on April 19, 2002. At that
                    time, as now, the agency cited a 6-month timeframe for completion of the
                    proposed actions.       In addition, the response to Recommendation
                    No. 15 states that the BRASS system will soon be taken out of service by
                    U.S. Customs. To reach a management decision PPQ needs to provide us
                    with an updated response, including timeframes, that takes into account the
                    expected discontinuation of the BRASS system.

Recommendation
No. 15         [                                                            ] Line Release
               Program participants on an ongoing basis, including up-to-date information
               from all ports of entry on any program violations committed.

                    Agency Response.

                    APHIS agreed with the corrective actions, but because of the expected
                    discontinuation of the U.S. Customs BRASS database the original corrective
                    actions proposed in response to the Management Alert have been changed.
                    Since PPQ relies on this database, further work on IT compatibility and
                    budgets pertaining to this issue await decisions from U.S. Customs.
                    However, PPQ has completed other database work with Customs on its new
                    Automated Commercial Environment and International Trade Data Systems.
                    In addition to other functions, PPQ plans for these systems to handle PPQ
                    Line Release Program participants on an ongoing basis, including up-to-date
                    information from all ports of entry on any program violations committed.
                    U.S. Customs [                                                ].




USDA/OIG-Audit No. 33601-3-Ch                                                            36
                              OIG Position.

                              We concur with PPQ’s [                                     ] Customs system
                              to monitor the operations of the Line Release Program. However, because
                              of the expected [        ] timeframe, interim action is needed. To reach a
                              management decision, APHIS needs to clarify its plans, [
                                                                                                        ]
                              the operations of the Line Release Program.


Finding No. 9.                More Inspections of Inbound Rail Containers Are Needed

                              Since PPQ issued its Stakeholders Safeguarding Report5 in 1999, the agency
                              has taken some steps to improve its monitoring of inbound rail containers.
                              However, we found that additional improvements are needed. PPQ officials
                              generally cited a lack of staffing although none of the ports we visited had
                              made use of staffing models to determine their actual needs. PPQ officials
                              also suggested that rail shipments that are not inspected at the border
                              crossings may still be inspected when they reach their inland port of arrival.
                              We found, however, that any rail cargo not destined for certain designated
                              inland cities may not be inspected once it enters the country. Consequently,
                              there is minimal assurance that plant and animal pests and diseases, as well
                              as plant and animal products smuggled via rail containers, will be detected.

                              Title 7 CFR 330.105(a) requires that PPQ inspect plants and plant products
                              at the port of first arrival in the United States. The 24 crossings on one
                              border alone handle about 1.2 million rail containers annually, but PPQ did
                              not staff all of these crossings. Our visits to five of these crossings disclosed
                              that only one holds rail shipments for inspection. The remaining ports
                              depended on referrals from U.S. Customs officials, whose agency mission
                              and areas of expertise do not necessarily provide them with the same
                              qualifications possessed by PPQ officers to recognize incoming cargoes of
                              agricultural interest.

                              For example, one crossing we visited[
                                                                                          ] containers in FY 2001).
                              PPQ personnel at this crossing [
                                                                                                          ]. In
                              FY 2000 alone, over 94,887 maritime containers from one foreign port were
                              placed on rail cars for delivery to cities in the continental United States.

                              At the time of our visit, this crossing had only a PPQ officer assigned. This
                              officer had been given password access to U.S. Customs’ Automated
                              Manifest System, which would allow him to identify suspect rail cargoes by
                              reviewing their cargo manifests. For maritime cargo, the manifests are

5
    Safeguarding American Plant Resources, Stakeholder Review of the APHIS-PPQ Safeguarding System dated July 1, 1999.



USDA/OIG-Audit No. 33601-3-Ch                                                                                            37
                  available before the shipments arrive, and the PPQ officer can hold rail
                  cargoes for inspection by notifying Customs.

                  We found that the PPQ officer did not use the Automated Manifest System
                  to identify incoming rail cargoes for inspection, and in fact could not even
                  remember his password to access the system when asked to demonstrate it.
                  Both the PPQ officer and port director stated that because of the time needed
                  to hold and inspect rail shipments, the PPQ officer assigned to this port
                  could be more effective by concentrating on the road crossings.

                  Another major rail pathway involves Asian cargoes. We visited a major rail
                  crossing and found that PPQ officers there had not been regularly assigned
                  to read manifests and other pertinent documents and perform the initial
                  inspections of the rail cargo. PPQ relies mainly on U.S. Customs for train
                  referrals.

                  Without regular reviews of incoming manifests, PPQ officers could very
                  easily miss incoming cargoes that might be considered high-risk. For
                  instance, solid wood packing materials from China could enter through this
                  pathway, and these materials have been found to harbor the Asian
                  Longhorned Beetle.

                  Similarly, another border crossing had only a single PPQ officer assigned.
                  This officer, whose primary responsibilities included inspections of vehicles
                  and truck cargo, did not perform inspections of[                            ]
                  containers that entered in FY 2000.

                  Recognizing the need to supplement its inspection activities at the border
                  crossings, PPQ’s Central Region began an Inland Cargo Inspection Program
                  in late FY 2000. In fiscal year 2001, five cities are included in this program:
                  [
                                                      ] According to WADS data, these five
                  ports performed 4,503 rail container inspections and cleared an additional
                  10,660 rail containers based on a review of shipping documents.

                  For those rail containers that were inspected at the five cities listed above,
                  we noted an interception rate of 1.1 percent. This interception rate is
                  significant when compared with the interception rates documented at eight
                  major airports we visited during this same timeframe. Although the
                  reportable pest interception rate for rail cargo is lower than the 3.8-percent
                  interception rate documented for air cargo inspections, it is far higher than
                  the 0.2-percent interception rate for air passengers.

                  PPQ officials at the various ports generally stated they needed more staffing.
                  As noted under Finding No. 5 of this report, PPQ does not use the resource
                  allocation models it has to help port managers determine appropriate staffing
                  distributions among the various work activities at each port (such as air


USDA/OIG-Audit No. 33601-3-Ch                                                             38
                   passenger, air cargo, maritime, and rail). PPQ officials questioned the
                   usefulness of these staffing models. However, considering that a single
                   interception of rail cargo might yield several tons of agricultural product
                   contaminated with unwanted pests or diseases, we concluded that APHIS
                   needs to perform a staffing assessment that would allow agency officials to
                   determine what percentage of its available personnel should be assigned to
                   this area.

                   According to APHIS’ Stakeholders Safeguarding Report, issued in 1999, rail
                   shipments along one border were not adequately monitored and the pest risk
                   for this pathway was unknown. It was not until FY 2001 that PPQ started to
                   maintain records in the WADS to show the number of rail examinations
                   performed. However, rail cargo is not an area covered by AQIM (see
                   Finding No. 1 of this report), which is currently PPQ’s only tool for
                   assessing the relative risk associated with the various pathways by which
                   pests, diseases, or smuggled items can enter the country. PPQ has taken
                   positive action by instituting the Inland Rail Inspection System; however,
                   not all rail cargo is subject to these inspections.

                   [

                                                                                      ]. That
                   most of these shipments are actually maritime cargoes means that these rail
                   cargoes can originate in any country in the world.

                   Considering the volume of rail containers, PPQ should develop a monitoring
                   standard and Headquarters should prepare a pest risk assessment on rail
                   shipments.

Recommendation
No. 16         Include rail cargo in PPQ AQIM risk-assessment system to determine the
               relative degree of risk associated with this pathway.

                   Agency Response.

                   Agency officials agreed with the recommendation. A subgroup of the
                   National AQIM Team was formed in September 2002 to plan, develop, and
                   implement collection of data needed to assess the risk of the rail pathway.
                   Implementation is scheduled for Spring 2003.

                   OIG Position.

                   We concur with APHIS’ management decision. Final action can be reached
                   when the risk-assessment procedures are actually extended to the rail
                   pathway.




USDA/OIG-Audit No. 33601-3-Ch                                                           39
Recommendation
No. 17         Require border crossings to regularly use Customs’ Automated Manifest
               System to identify incoming rail cargoes of agricultural interest, so that high-
               risk cargoes can be stopped and inspected.

                     Agency Response.

                     PPQ officials believed that better results could be obtained by using its
                     resources to help develop Customs’ new Automated Commercial
                     Environment and International Trade Data Systems, which they believe will
                     address many of the shortcomings which have been noted in the AMS
                     system over the years. Such shortcomings include the fact that AMS [

                                                .]

                     PPQ has completed its business case and system requirements for the new
                     system. U.S. Customs plans to make the new systems operational within
                     [       ].

                     OIG Position.

                     We concur that, based on the descriptions provided, the new system under
                     development will be an improvement on AMS. We also concur with the fact
                     that AMS possesses the noted drawbacks, which make it a less-than-ideal
                     tool for identification of incoming, high-risk cargo.

                     However, until the new systems are operational, AMS remains the only
                     automated tool available to PPQ officers for identifying high-risk rail
                     cargoes. Even though not all border crossings are equipped to inspect rail
                     shipments, those that have the ability to do so should be required to use
                     AMS until the new systems are available. In addition, border crossings that
                     do not have the capability to stop and inspect rail shipments could make use
                     of AMS to identify high-risk shipments and forward this information to
                     destination points which can, such as those cities designated for the Inland
                     Cargo Inspection Program.

                     To reach a management decision on this recommendation, PPQ needs to
                     provide us with the interim actions, including timeframes for
                     implementation, which will be taken to identify high-risk cargoes until the
                     new U.S. Customs automated systems are available




USDA/OIG-Audit No. 33601-3-Ch                                                              40
Recommendation
No. 18         Develop a system to ensure that all rail cargo is at least subject to selection
               for inspection, either at border crossings or at the inland destination cities.

                     Agency Response.

                     PPQ officials stated that in the short term, they are working on developing
                     the Automated Tracking System (ATS) to set up rules that would
                     automatically check bills of lading and entry data to ensure that all imported
                     rail cargo is subject to selection for inspection. This could be done for any
                     border crossing or inland site. Immediate action is being taken on this issue
                     in the hiring of more PPQ officers over the next 2 years for inland and
                     border sites; some of these will be designated for inspections of rail cargo.
                     In the long term, the International Trade Data System under development for
                     all government agencies is expected to be able to target and set up
                     inspections for incoming high-risk rail cargoes.

                     OIG Position.

                     We concur with the corrective actions under development. To reach a
                     management decision, PPQ needs to provide us with its timeframes for
                     having the new ATS functions implemented as part of PPQ’s system of rail
                     cargo inspections.


Finding No. 10.      APHIS Needs To Strengthen Its Monitoring Of Firms That
                     Dispose Of Foreign Garbage

                     At 9 of the 13 air and sea ports of entry reviewed, PPQ did not effectively
                     monitor the handling and disposal of foreign garbage by private firms—
                     caterers, garbage haulers, and incinerator operators—operating under
                     compliance agreements to prevent the introduction of pests and diseases into
                     the United States. Specifically, PPQ did not monitor these firms on a
                     monthly basis and did not ensure that equipment at these firms was
                     functioning properly. Moreover, there was no standard surveillance
                     checklist for PPQ inspectors to complete that included all aspects of animal
                     disease exclusion activities. Ports generally responded that monitoring was
                     deficient because there were few staffpersons assigned to this activity.
                     Because garbage may contain pests and diseases, the proper control and
                     disposal of the garbage is vital to keeping these agricultural hazards out of
                     the United States.

                     The Airport and Maritime Operations Manual states that PPQ’s role of
                     controlling garbage is one of supervision. PPQ authorizes firms to handle
                     and dispose of garbage through the use of compliance agreements. To
                     ensure the firms meet the terms of the agreements, which reflect Federal
                     requirements for garbage disposal, the operations manual requires PPQ


USDA/OIG-Audit No. 33601-3-Ch                                                               41
                  -      to monitor all firms’ operations at least once a month,
                  -      to supervise the handling, collection, transportation, sterilization or
                         incineration, and disposal of regulated garbage at maritime ports with
                         approved facilities,
                  -      to ensure that garbage is incinerated at a minimum temperature of
                         212 degrees for 30 minutes, and
                  -      to supervise the recalibration of the sterilization temperature
                         recording device twice a year.

                  We reviewed PPQ monitoring of garbage handling under 107 compliance
                  agreements at 7 airports and 6 maritime ports. At four airports and five
                  maritime ports, PPQ had either not monitored firms on a monthly basis,
                  ensured that the equipment at these facilities was functioning properly, or
                  developed a monitoring log to account for monitoring activities or maintain
                  their consistency. Examples of the conditions noted were as follows:

                      One maritime port had not monitored the handling and disposal of
                      foreign garbage by private firms and had not observed the recalibration
                      temperature recording devices on sterilizers used to dispose of garbage.
                      Under its one compliance agreement with a steam sterilization facility,
                      PPQ is required to verify the sterilizer’s temperature using a
                      thermocouple. We were unable to determine if the port met this
                      requirement because no documentation was maintained. During the
                      8-month period October 2000 through May 2001, the port removed and
                      disposed of over 85 tons of garbage from 58 vessels, but PPQ had no
                      documentation to account for its monitoring of this disposal.

                      During the period of February 2001 through March 2001, PPQ at another
                      maritime port supervised the recalibration of sterilizers for the first time
                      since 1998 for two facilities and since 1999 for one facility. In addition,
                      this PPQ unit had not monitored the handling and disposal of over
                      71 tons of garbage from 146 vessels during the period October 2000
                      through May 2001.

                      The PPQ unit at a large airport had compliance agreements with three
                      caterers, one garbage hauler, and one facility for incinerating garbage.
                      During fiscal year 2001, PPQ did not monitor the catering firms’ garbage
                      handling activities on a monthly basis. PPQ did not monitor the caterers’
                      operation during 5 of the 12 months for two firms and during 6 of the
                      12 months for one firm. PPQ had not performed any monitoring visits to
                      the garbage hauler to determine if the conditions in the compliance
                      agreement were met. The incinerating facility, located in another city,
                      was monitored three times by PPQ during FY 2001. A second waste
                      hauler that transported foreign garbage from the airport received no
                      monitoring because it had not entered into a compliance agreement with



USDA/OIG-Audit No. 33601-3-Ch                                                              42
                     PPQ, and PPQ management was unaware of its operation prior to our
                     audit.

                     Similar conditions were also noted at two more international airports,
                     and at the two maritime ports. Although one of these had issued one
                     firm a $250 fine in July 2000 for using leaking containers, it did not
                     document any monitoring. An official at another said monitoring visits
                     were performed quarterly, not monthly. Inspectors at yet another airport
                     said inspections were performed when compliance agreements were
                     renewed.

                  PPQ officials stated that the lack of staff and resources prevented PPQ from
                  performing the required monitoring of the firms’ garbage handling activities.
                  The supervisory PPQ inspector at one port said that the port did not have a
                  compliance officer since 1998. Even though this port received three
                  complaints that year about the same firm, PPQ did not resume monitoring
                  until May 2001. Similarly, another PPQ office did no monitoring for the
                  early months of FY 2001 and only resumed monitoring after the outbreak of
                  Foot and Mouth Disease in Britain raised concerns about beef imports to this
                  country. PPQ issued three violation letters to the garbage collection firms in
                  May 2001.

                  We also noted that there was no standardized or uniform surveillance
                  checklist for PPQ inspectors to complete that included all aspects of animal
                  disease exclusion activities. The surveillance methods used by PPQ
                  inspectors to document their monitoring reviews varied from port to port.
                  For example, at one airport, PPQ inspectors used a detailed surveillance
                  checklist, while inspectors at another airport used only a surveillance activity
                  report. Inspectors at a third had no monitoring or surveillance logs at all.
                  Inspectors at another did not start using a compliance log to document their
                  monitoring of garbage handling and disposal until May 2001. Inspectors at
                  another had developed a monitoring checklist, but did not always complete
                  the checklists.

                  To ensure that all aspects of animal disease activities are included in PPQ
                  monitoring visits, PPQ, assisted by the Veterinary Service, should develop a
                  standardized and comprehensive monitoring checklist for PPQ inspectors to
                  use when monitoring firms operating under compliance agreement.

                  Garbage arriving from outside of the United States ([                   ]) is
                  restricted to prevent the entry and dissemination of plant pests and animal
                  diseases. Untreated garbage is a known pathway for animal diseases such as
                  Foot and Mouth, hog cholera, and vesicular swine fever. Therefore, all firms
                  handling foreign garbage need to enter into compliance agreements to meet
                  PPQ standards, and PPQ needs to monitor the firms’ performance in meeting
                  those standards.



USDA/OIG-Audit No. 33601-3-Ch                                                              43
Recommendation
No. 19         Coordinate with Veterinary Services to develop a standardized and
               comprehensive surveillance checklist for PPQ inspectors to ensure that all
               animal disease exclusions are included during monitoring visits.

                    Agency Response.

                    PPQ officials stated that they would consult with VS on the inclusion of
                    additional items for monitoring activities. Further, a checklist will be
                    developed for those activities that are currently stated in the Airport and
                    Maritime Operations Manual but are not covered by PPQ Forms 288 or
                    252R.

                    OIG Position.

                    We concur with the proposed corrective actions. To reach a management
                    decision, PPQ officials need to provide us with their timeframes for
                    implementation of the agreed-to actions.

Recommendation
No. 20         Direct all PPQ units to enter into compliance agreements with all firms
               handling foreign garbage.

                    Agency Response.

                    Within the next 2 weeks, PPQ Headquarters will issue a memorandum to the
                    field units specifying that any entity handling garbage must be either under a
                    compliance agreement or directly supervised by PPQ. PPQ is developing a
                    contract for the development of an electronic database that would provide
                    template compliance agreements, and review and monitoring schedules.
                    Within the next year, a risk assessment of airline garbage should be
                    conducted to determine that this utilization of PPQ staff is appropriate for
                    the level of risk.

                    OIG Position.

                    We agree with PPQ’s actions, both taken and proposed, to ensure that
                    compliance agreements are in place with all firms handling foreign garbage.
                    To reach a management decision, PPQ officials need to provide us with
                    timeframes for the preparation of the contract for the development of the
                    electronic database and the implementation of the database.

Recommendation
No. 21         Implement controls to ensure that all PPQ units monitor the activities of all
               garbage-handling firms on a monthly basis and supervise the recalibration
               of sterilizer units at least twice a year.


USDA/OIG-Audit No. 33601-3-Ch                                                              44
                    Agency Response.

                    PPQ officials stated that the memo being sent to field units referenced in the
                    response to Recommendation No. 20 would also restate the requirements for
                    monitoring and recalibration of sterilizer units.

                    OIG Position.

                    We accept APHIS’ management decision. Final action would be concurrent
                    with the issuance of the agreed-to policy memorandum.


Finding No. 11.     APHIS Did Not Target Importers Whose Shipments Have
                    Historically Posed the Greatest Risk

                    PPQ risk management procedures do not require inspectors at the ports to
                    target cargo shipments by importers with a history of smuggling violations.
                    As a result, the ports did not perform profile inspections of such shipments.
                    We concluded that PPQ may have missed opportunities to intercept
                    prohibited products or improperly manifested cargo from entering the United
                    States.

                    APHIS’ Smuggling, Interdiction, and Trade Compliance (SITC) Team
                    maintains a database which identifies importers, shippers, and brokers that
                    have a history of smuggling violations. The ports, which have access to this
                    database, have the option of using it to select shipments for inspection or not
                    to use it. PPQ officials at 6 airports and 2 border crossings did not use the
                    database. At the time of our audit, the database identified 78 violators with a
                    total of 97 smuggling violations. The database also identified nine violators
                    with a prior history of smuggling violations. As cited in Finding No. 8, one
                    of the violators continued to participate in a Line Release Program after
                    being penalized $5,000 for smuggling products into the United States using a
                    greenhouse certificate. Although this firm had a history of smuggling
                    violations and pest infested shipments, PPQ did not take action to prevent or
                    limit the shipper’s participation in the Line Release Program.

                    During April 2001, PPQ and the SITC team agreed to prepare a draft policy
                    that would require PPQ to target for inspection those shipments from repeat
                    violators. However, as of May 2002, the agency had not worked out the
                    policy, and could not provide a time estimate of when this would be
                    accomplished.

Recommendation
No. 22         Expedite the issuance of policy that will require PPQ inspectors to inspect
               shipments from importers with a history of violations.



USDA/OIG-Audit No. 33601-3-Ch                                                               45
                  Agency Response.

                  PPQ officials stated that guidance would be provided to all PPQ ports to
                  ensure that appropriate inspections are applied to high-risk cargo, including
                  shipments from importers with a history of violations. This will be part of
                  the uniform procedures that will ensure that all ports are devanning sampled
                  cargo containers, and the guidance will be developed and distributed by June
                  2003.

                  OIG Position.

                  We accept APHIS’ management decision. Final action would be completed
                  when the agreed-to guidance has been distributed and new policy
                  implemented.




USDA/OIG-Audit No. 33601-3-Ch                                                            46
Objective 4: WADS System

Finding No. 12.   APHIS’ System         Of    Measuring      Inspection      Activity    Needs
                  Improvement

                  We found that data on PPQ inspection activities, as recorded in the WADS,
                  was incomplete and inaccurate. PPQ employees assigned to collect and input
                  WADS information had often not received formal training on how to
                  perform their duties, and thus did not fully understand the procedures and
                  requirements associated with the system.       In addition, the ports had not
                  provided for second-party reviews or established adequate controls to ensure
                  that data was being timely and accurately input, and neither PPQ
                  Headquarters nor the regional offices provided supervision or oversight to
                  ensure consistency between the ports. As a result, WADS information input
                  at various ports was incorrect, lacked consistency, and could not always be
                  verified due to a lack of source documentation. WADS data is used in
                  making risk assessments, determining staffing needs, and reporting under the
                  Government Performance and Results Act. Thus, inaccurate or
                  unsubstantiated reporting of inspection activity in WADS can seriously
                  impact PPQ’s ability to operate its programs and assess the results of those
                  operations. In all, our visits to 22 ports of entry disclosed that 19 had
                  reported data that was either incorrect or unsubstantiated.

                  The WADS system was implemented by PPQ in 1985 to track work
                  accomplishment activity and to assist APHIS Headquarters in planning work
                  assignments. The WADS database includes a daily record of inspection
                  activity, broken down by pathway (such as air or maritime passengers and
                  cargo, trans-border vehicles or pedestrians, railway traffic, and international
                  mail). In addition to recording inspection activity, the WADS system also
                  tracks interceptions of prohibited products and records their disposition (i.e.
                  re-exported, fumigated and released, destroyed, etc.). WADS identifies and
                  tracks inspections and interceptions at the ports using 12 different program
                  categories (e.g. Maritime, Airport, Land Border programs), as well as
                  numerous codes to denote specific activities under each program category.
                  Each port is responsible for collecting and entering information on the
                  system; this information includes such data as the number of inspections
                  performed and the number and type of pest interceptions. The system is also
                  intended to track “universe” data on the total number of units (such as
                  passengers, ships, planes, or vehicles) that entered the port, whether or not
                  they were inspected. Each port transmits this data to the applicable PPQ
                  regional office on a monthly basis. The regional offices, in turn, compile the
                  data from their ports and forward this to the national WADS database
                  maintained at PPQ Headquarters.




USDA/OIG-Audit No. 33601-3-Ch                                                             47
                  We found, however, that neither PPQ Headquarters nor the regional offices
                  had provided oversight to ensure that the ports were entering data in an
                  accurate, timely, or consistent manner. Our visits to 15 ports incorporating
                  22 worksites disclosed a number of variations in the way data was being
                  interpreted for entry into the system, so that identical inspection activities
                  performed at different ports could be recorded (and thus later interpreted) in
                  different ways. Some ports failed to maintain documentation to substantiate
                  the information entered into WADS, while others were unable to reconcile
                  WADS data to source documentation. Also, since ports generally did not
                  assign personnel to perform oversight functions such as second-party
                  reviews, such errors were generally not discovered before being transmitted
                  to the regional offices and Headquarters for inclusion in the nationwide
                  WADS summaries. The problems we noted at the ports are summarized in
                  the following paragraphs.

                  Lack of Consistent Methods in Compiling and Reporting Data

                  We found that ports were not always compiling, classifying, and entering
                  WADS data in a consistent manner. Port officials generally attributed this to
                  a lack of clear instructions on how to perform these functions; however, we
                  also found that ports generally did not assign personnel to perform second-
                  party or other supervisory reviews to ensure the accuracy or timeliness of the
                  entered data. The following examples illustrate the incorrect procedures that
                  led to errors in WADS reporting.

                     Pest interceptions discovered in rail shipments were not always reported
                     by PPQ personnel assigned to one airport. Over a 10-month period, we
                     found that 8 out of 34 (24 percent) of the reportable pests found during
                     rail inspection activities were not entered into the WADS system. A PPQ
                     official stated that it was the policy at this port to report pest infestations
                     in WADS only after the intercepted pests have been identified.
                     However, because WADS information is transmitted to the regional
                     office on a monthly basis, the port does not input to WADS any pest
                     interception in which the pest is not identified during the same month as
                     the original QMI. The PPQ official we interviewed acknowledged that
                     because of this, the port was understating its reported interceptions in
                     WADS. Other ports we visited were reporting intercepted pests in the
                     month that it was identified.

                     A port reported all bus and vehicle inspections under the category for
                     "Vehicle Inspections," even though WADS includes a separate category
                     for bus inspections. Because the port maintained no supporting records
                     to distinguish inspections of passenger vehicles from busses once these
                     had been entered into WADS, both categories incorrectly reflected the
                     number of inspections performed as well as the number of related pest
                     interceptions. PPQ officials admitted that they had incorrectly reported



USDA/OIG-Audit No. 33601-3-Ch                                                                48
                     bus and vehicle inspection activities and were not aware of this particular
                     error until the time of our fieldwork. Neither the port director nor the
                     PPQ technician who entered the information had realized that busses
                     were supposed to be reported under a separate category.

                     We checked eight line items from the February and March 2001 WADS
                     reports for a maritime port and found that reports reflected incorrect
                     information for two of the eight.

                     When entering data into the WADS system, PPQ personnel at the port
                     understated the total number of passenger/crew arrivals in the WADS
                     report by including only those who arrived on vessels that were actually
                     boarded by PPQ officers. The WADS guidelines state that PPQ
                     inspectors are to “report the number of passengers and/or crew
                     disembarking from all vessel arrivals. These are passengers/crew subject
                     to inspection.”

                     For the month of February 2001, PPQ inspectors at the port boarded only
                     120 (45 percent) of the 269 vessels that arrived in port. In WADS, the
                     port reported a total of 25,519 passenger/crew arrivals, and
                     25,469 passenger/crew inspections. Based on this data, it appears that
                     the PPQ inspected nearly 100 percent of the passengers and crew who
                     arrived by ship for that month. However the “universe” of incoming
                     passengers and crew that was reflected in WADS ignored those
                     incoming on the other 149 vessels that PPQ inspectors did not board.
                     Similarly, for March 2001, the WADS report showed that PPQ had
                     inspected 35,865 passengers and crew out of 35,946 passengers who
                     disembarked (99.8 percent). However, this figure did not reflect the fact
                     that inspections had occurred on only 127 of 354 vessels (36 percent)
                     during that month. APHIS had not obtained information on the number
                     of passengers and crew who arrived on the uninspected vessels.

                     In addition, we found that the port understated the overall number of
                     inspections performed by failing to report inspections of solid wood
                     packing materials under the category “Regulated Maritime Cargo
                     Inspections.” Although solid wood packing materials are often used in
                     shipments of unregulated items, the WADS manual specifies that for
                     WADS reporting purposes they are to be included in this category.
                     Thus, for February 2001, the report showed only 249 (64 percent) of the
                     390 inspections that should have been reported, while for March 2001
                     WADS only reflected 202 inspections (66 percent) of the 306 inspections
                     which should have been reported under this category.

                     The port director stated that WADS input was handled by a single PPQ
                     technician, and this duty was rotated from time to time rather than
                     having a single person assigned to this duty. In addition, the technician



USDA/OIG-Audit No. 33601-3-Ch                                                            49
                     inputting the WADS data continued to have other duties assigned. The
                     technician assigned to WADS duty at any given time is provided no
                     formal training, and has only the manuals to go by, along with any
                     knowledge and information passed along by the person previously
                     assigned to this duty. The port director believed that the problems we
                     found could be attributed to these factors.

                     PPQ inspectors at another port routinely used estimates when entering
                     the number of cruise ship arrivals into WADS. The PPQ personnel
                     responsible for inputting the data stated that this was done because they
                     did not maintain the necessary documentation. Similarly, at a southern
                     border crossing, PPQ personnel waited until the end of their shifts to fill
                     in their activity logs, the source document from which the WADS data
                     was input. Therefore, the WADS data was based on unreliable
                     information.

                  Although some formal training had been provided to PPQ personnel who
                  performed WADS duties, the ports we visited generally stated that there had
                  been no recent formal training. Many of the PPQ inspectors responsible for
                  WADS functions at the time of our field visits had inherited these duties
                  from other employees, from whom they had received their training; as a
                  result, some of these employees had received only minimal instruction in
                  their duties. In other instances, employees performed WADS reporting
                  functions on a part-time basis, and in addition to their regular inspection
                  duties.

                  Lack of Controls Over Timeliness and Accuracy of WADS Entries

                  We found that ports generally had not implemented adequate controls to
                  ensure that WADS data was input in a timely and accurate manner. This
                  was due in large part to a lack of second-party or other supervisory reviews
                  during the WADS input process. A PPQ Headquarters official informed us
                  that there were no written policies requiring second-party reviews of WADS
                  data. This same official stated that if the person inputting the information
                  correctly used the code sheets provided, and if port officials reviewed the
                  data before sending it to Headquarters, the data would be correct.

                  However, we found that port officials only conducted cursory reviews to
                  determine whether input data appeared reasonable, not to verify its accuracy.
                  And, as noted in the previous section, PPQ personnel at the ports often did
                  not understand how to properly input data because of inadequate training
                  and/or written instructions. The following examples illustrate the conditions
                  we noted.

                     We found that the PPQ office at an airport had been submitting WADS
                     reports with incomplete data to the regional office over a period of



USDA/OIG-Audit No. 33601-3-Ch                                                            50
                     several years. The office had numerous bins containing nonperishable
                     samples that had been seized as far back as 1996 but had never been
                     analyzed. None of these had ever been reported as interceptions in
                     WADS. A PPQ official attributed the backlog and the consequent failure
                     to report the interceptions in WADS to several factors, including the lack
                     of controls to ensure that the samples were timely analyzed and the
                     results input to WADS. In all, we found that approximately 1,200 pest
                     interceptions had never been analyzed and input into WADS.

                     WADS reports for a land border crossing significantly understated the
                     number of inspections and interceptions that were completed. For our
                     initial review, we selected the inspection category “Interceptions – Plant
                     Materials, Co-op,” which identifies interceptions of plant materials
                     entering by truck. For this category, the workstation reported
                     176 interceptions for the month of February 2001; however, the WADS
                     summary for the border crossing, which incorporates all inspection
                     activity for the workstation, reflected none of these. We expanded our
                     analysis and found that the border crossing had failed to report
                     approximately 4,000 inspections performed at the workstation from
                     November 2000 through March 2001. According to officials, this
                     occurred because the workstation did not provide summary reports of
                     their inspection activities on a timely basis, and PPQ officials at the
                     border crossing never entered those workstation summary reports that
                     were sent in late. During this 5-month period, the exclusion of the
                     workstation data caused this border crossing’s reported inspections in
                     this category to be understated by 43 percent. The workstation
                     interceptions in this category totaled 642 for this period, and the failure
                     to include them in WADS caused the reported interceptions for the
                     border crossing to be understated by 31 percent.

                  Documentation Was Not Maintained To Support WADS Information

                  At four of the ports we visited, we found that PPQ did not maintain
                  documentation on file to substantiate the information contained in WADS.
                  In part, this occurred because managers did not assign specific responsibility
                  for maintaining the source documents; in addition, the WADS manual
                  contains no specific references to what documents should be retained, or for
                  how long. In all, we found that 4 of the 15 ports we visited had either lost
                  or disposed of documentation supporting information entered into the
                  WADS system.

                     For example, one port was unable to supply source data to substantiate
                     the 674 phytosanitary certificates for incoming fruits and vegetables that
                     had been entered into WADS for the month of February 2001.
                     Similarly, we were unable to verify the reported 822 regulated cargo
                     clearances for February 2001; the PPQ officer responsible for ensuring



USDA/OIG-Audit No. 33601-3-Ch                                                            51
                     the data stated that he had not kept documentation to show how the
                     number was arrived at.

                     For that same month, we were unable to verify the 1,579 plant product
                     interceptions that were shown as having occurred during the month. We
                     traced the reported interceptions to the PPQ Form 288 (Ship Inspection
                     Report), but found only 663 interceptions reported there, a difference of
                     916 interceptions. The PPQ supervisor stated that it was not uncommon
                     for the port to lose several of the 288 reports in a given month because
                     no one person is assigned responsibility for overseeing them. In addition,
                     the PPQ supervisor agreed that many of the numbers on the WADS
                     summary did not represent actual inspections, but just daily averages.
                     Because of the port’s lack of controls, only 42 percent of the reported
                     interceptions could be substantiated.

                     The WADS report for an airport showed only 6 interceptions of
                     reportable pests for February 2001, the PPQ Interception Report showed
                     14. Similarly, the March Interception Report showed 15 interceptions of
                     reportable pests, but only 3 of these were carried forward into WADS.
                     We asked PPQ officials the reason for this discrepancy, since the
                     Interception Reports should have been the source documents from which
                     the WADS information was input. PPQ officials could not explain why
                     the two reports did not match, and stated that there was no reliable way
                     that we could trace the numbers from the Interception Reports.

                     A maritime port did not maintain supporting documents to substantiate
                     the Reportable Pest Interceptions (totaling 26 in one month we reviewed
                     and 19 in the other) reported in WADS. When we brought this to the
                     attention of the port director, she agreed that there was a problem and
                     amended the WADS data to reflect zero interceptions for each month.
                     We also found that we could not reconcile the Interceptions of
                     Reportable Pests or fumigations for the 4 months we reviewed, from
                     March through June 2001. We discussed these discrepancies with the
                     Port Director, and she again agreed that these should not be reported
                     because of the lack of documentation. As a result, she revised the
                     Reportable Interceptions in WADS.

                  A PPQ Headquarters official expressed his belief that by the time WADS
                  information reached Headquarters, it would have been sufficiently reviewed
                  to ensure its timeliness and accuracy. However, we found that even though
                  PPQ Headquarters does from time to time conduct reviews at the ports, no
                  documentation existed to show that WADS had ever been included in such
                  reviews. Thus, Headquarters officials had little assurance that the ports were
                  following procedures. In addition, we noted instances where the procedures
                  themselves were not clear, such as in the area of record retention and
                  documentation requirements. In our audit work at the regional offices, we



USDA/OIG-Audit No. 33601-3-Ch                                                            52
                    likewise found that the regions had not conducted adequate reviews to
                    evaluate ports’ systems for ensuring the accuracy of WADS information.

                    Unreliable data entered into WADS not only affects the ports and their
                    workstations, but also becomes an unreliable planning tool for both the
                    Regional and Headquarters offices. Since neither the workstations nor the
                    Regional offices verify the data, the WADS reports that get transmitted from
                    the workstations to the regions and then to the Headquarters offices contain
                    the same errors and omissions. This data is the basis of risk assessments,
                    staffing models, and AQI monitoring evaluations, as well as the reports filed
                    under the Government Performance and Results Act.

Recommendation
No. 23         Require each port to institute a system of a second-party reviews to ensure
               the accuracy of WADS data entered into the system.

                    Agency Response.

                    Agency officials responded that the accuracy of WADS data is being
                    addressed on various fronts. A contract was awarded to an information
                    system company to develop a centralized system for data collecting and
                    reporting. This contract also calls for the development of solutions for
                    quality assurance and validation of port data. The Eastern and Western
                    Regions developed Quality Assurance Data Management Plans to address
                    various issues surrounding data quality.

                    OIG Position.

                    We agree with the agency actions to ensure the accuracy of WADS data.
                    Before we can reach management decision, agency officials need to provide
                    timeframes for the development of the centralized data system and
                    implementation of the Eastern and Western Regions’ Quality Assurance
                    Data Management Plans to address the issues surrounding data quality.

Recommendation
No. 24         Ensure that monitoring reviews conducted at the ports by both Headquarters
               and the regional offices include review steps to ensure that each port has an
               adequate system and that WADS data is input in a timely and accurate
               manner.

                    Agency Response.

                    A systematic approach to check operational data, such as WADS, has been
                    developed and is currently used by all personnel conducting port, staffing,
                    and AQIM review.




USDA/OIG-Audit No. 33601-3-Ch                                                             53
                   OIG Position.

                   We agree with APHIS’ assessment that a systematic approach is needed to
                   ensure the timeliness and accuracy of WADS data. To reach a management
                   decision, APHIS officials need to provide sufficient additional information
                   for us to evaluate the new system referenced in the response.

Recommendation
No. 25         Ensure that all PPQ personnel assigned to WADS duties at the ports have
               been provided with adequate training.

                   Agency Response.

                   The agency responded that as part of the port review process, personnel
                   responsible for collecting and entering WADS data are provided training in
                   data collection and submission. Once the centralized data collection and
                   reporting tools are deployed, personnel will be trained and/or provided with
                   materials on the use of the system. The train-the-trainer methodology will be
                   used to implement the training.

                   OIG Position.

                   We agree with the agency’s proposed actions to provide training to staff
                   assigned WADS duties. Before we can reach management decision, the
                   agency needs to provide timeframes for the implementation of the
                   centralized data collection and reporting, the training of personnel on the use
                   of the system, and train the trainer programs.

Recommendation
No. 26         Revise the WADS manual to provide better instructions to PPQ personnel at
               the ports regarding the retention, collection and input of data.

                   Agency Response.

                   The agency agreed with the recommendation and stated that detailed user
                   documentation on all aspects of data handling from input to collection to
                   retention is one of the tasks of the centralized system for the data collection
                   and reporting contract. Comments from the ports will be used to enhance
                   the new WADS manual.

                   OIG Position.

                   We agree with the agency’s efforts to provide better instructions to PPQ
                   personnel regarding retention, collection, and input of data. Before we can
                   reach management decision, the agency needs to provide timeframes for the
                   implementation of the centralized system and development of the new
                   WADS manual.



USDA/OIG-Audit No. 33601-3-Ch                                                              54
Objective 5: T&E Shipments

Finding No. 13.   PPQ Needs To Establish Control Over Transportation And
                  Exportation Shipments

                  PPQ did not adequately track Transportation and Exportation (T&E)
                  shipments from the time they entered the country to the time they left, and
                  did not always follow up on shipments that were not recorded as leaving the
                  country. T&E shipments consist of cargo that arrives at a U.S. port with an
                  ultimate destination of either Canada or Mexico. Normally, T&E shipments
                  consist of fresh fruits and vegetables that are known hosts for harmful pests
                  such as fruit flies. Because these shipments are destined for further
                  exportation, they are allowed to cross the country under conditions outlined
                  in the broker’s permit, including a limited time for transit. APHIS failed to
                  implement recommendations from a prior audit that would have ensured
                  adequate tracking of T&E shipments. During this audit, we found similar
                  conditions, in that 3,714 of 3,962 T&E shipments entering the country
                  through 6 ports of entry could not be accounted for as having left the
                  country. Many more did not leave in a timely manner, raising a question of
                  whether the cargoes that actually left were the same as those that entered.

                  7 CFR 352.10 (b) (1) states that prohibited and restricted cargo must be
                  exported immediately—that is, the shortest interval of time required to
                  transfer the product from the United States commensurate with the risk of
                  plant pest dissemination. The T&E exit time varies based on the amount of
                  time it would take the shipment to get from the port of entry to the port of
                  exit, which is specified on the permit. For example for a shipment of
                  mangoes entering the country at Laredo, Texas, and exiting at Detroit,
                  Michigan, the shortest interval of time denoted on the permit was 7 days.
                  T&E guidance issued in October 1998 requires that the port of entry track
                  the T&E shipments. The Transit Methods and Procedures, issued May 28,
                  1998, state that documentation notifying PPQ of entry and exit will be
                  required for all transit shipments. However, the regulations are silent on the
                  method PPQ is to follow to ensure the immediate export of T&E shipments.

                  In a prior audit issued in August 1999 (Report No. 33099-3-Ch), we found
                  that APHIS did not have adequate controls to verify that T&E shipments did
                  in fact leave the country as required. Specifically, we found that 199 T&E
                  shipments (11 percent of those entering the country between April and
                  November 1998) could not be accounted for at the designated ports of exit.
                  APHIS response to this audit stated, in part, that APHIS officials at both
                  Southern and Northern border ports will;

                  1. form working groups to ensure that both parties are properly notified of
                     all T&E shipments enroute to their border crossings,




USDA/OIG-Audit No. 33601-3-Ch                                                            55
                                2. implement proper notification and tracking procedures for all T&E
                                   shipments, and

                                3. take follow-up actions on overdue or missing T&E shipments.

                                Our review of T&E shipments disclosed that PPQ had not established
                                adequate tracking systems to ensure the shipments exited the United States
                                within the required time periods. We found during our current audit that
                                APHIS had not made any substantive improvements. APHIS had not
                                established a uniform, tracking system for use by all ports, and it had not
                                established procedures to be followed by the ports of entry and ports of exit.
                                Moreover, the agency had not performed oversight to ensure that ports were
                                taking appropriate followup action to ascertain the status of missing
                                shipments, or to refer cases to Investigative and Enforcement Services (IES),
                                for appropriate enforcement actions against shippers who do not follow
                                program requirements.

                                We judgmentally selected six ports of entry that received T&E shipments.
                                During a period of September 2000 through February 2001, 4 of the 6 ports
                                of entry received a total of 3,895 T&E shipments.6 The other two ports of
                                entry received 67 shipments during a period of February 2001 through July
                                2001. APHIS was unable to provide documentation confirming the exit of
                                3,714 of these shipments, or 94 percent of the total number.

                                PPQ began tracking T&E shipments in certain locations in October 2000.
                                Other ports of entry did not have tracking systems in place.

                                As in our August 1999 audit, we found that PPQ officials at the ports were
                                unclear as to whose responsibility it was to track and reconcile T&E
                                shipments. At each port, PPQ officials neglected to take responsibility for
                                tracking the T&E shipments. According to the T&E guidance issued in
                                1998, monitoring of T&E shipments will be conducted at the port of entry.

                                T&E Shipments at Two Eastern Ports of Entry

                                A total of 3,657 T&E shipments entered the country through two airports to
                                exit through the U.S.- Canada border. The T&E permits issued by one
                                airport PPQ work unit allowed 2 days for the shipments to exit the country
                                through the land border crossings. The T&E permits issued by the other
                                PPQ work unit allowed 7 days for the shipments to exit the country through
                                a border crossing.

                                Of the 3,657 T & E shipments, 3,464 originated at one airport. However,
                                PPQ officials at the airport and at the port of exit could not provide us with
                                documentation that would show that these shipments actually left the

6
    This total includes an additional 49 shipments we reviewed between April and Juiy 2001 in one port.



USDA/OIG-Audit No. 33601-3-Ch                                                                             56
                  country. PPQ officials at the port of exit stated that they do not track or
                  attempt to reconcile T&E shipments that exit at their port. The PPQ officials
                  stated that they relied on Customs’ computerized bonding system to track
                  T&E shipments. However, these officials indicated that they could not
                  recall when a Customs official ever notified them about a missing shipment.

                  For the remaining 193 of the 3,657 T&E shipments, which originated in
                  another port of entry, the PPQ Unit was unable to provide us with exit dates
                  for the shipments designated to exit the country. The port of entry faxed the
                  information on the 193 shipments to the port of exit, but this PPQ unit did
                  not use the data to track the status of the shipments or to ensure that all the
                  T&E’s were in fact accounted for. Officials at the port of arrival stated that
                  they do not track T&E shipments once they leave the port. These officials
                  stated that once the T&E shipments are sealed and the information faxed to
                  the port of exit, it becomes the port of exit’s responsibility to ensure that the
                  shipments leave the country.

                  Because we obtained our sample of 193 T&E shipments from the port of
                  exit, there is no assurance that the port of arrival was sending all T&E data
                  to the port of exit, or that PPQ was aware of the total number of T&E’s that
                  were to leave the country. The 7-day period allowed by the PPQ unit for
                  shipments to leave the country is excessive when compared to T&E permits
                  issued by the two other units which allowed 7 days and 2 days, respectively
                  for shipments to exit the country.

                  Arrivals at One Land Border Crossing

                  We reviewed 115 T&E shipments originating at a land border crossing
                  during the period September 1, 2000, through February 28, 2001. Since the
                  import permits applicable to these loads required exportation within 7 days,
                  all the shipments reviewed should have been exported no later than
                  March 7, 2001. However, we identified 21 shipments for which PPQ had no
                  evidence of export. Four of the 21 shipments arrived as early as October
                  2000. PPQ did not initiate a reconciliation process until April 2001 and did
                  not contact the broker until May 11, 2001. As of August 8, 2001, PPQ still
                  had not received documentation from the broker for 7 of the 21 shipments. A
                  PPQ official stated that they planned to refer these shipments to IES, only
                  after we questioned the delay in referral.

                  PPQ port officials stated that prior to April 2001 they had not been
                  monitoring T&E shipments to determine if the shipments had been exported
                  because the port lacked staffing and because PPQ had issued no guidance
                  concerning the reconciliation of T&E shipments. Tracking began in March
                  2001 with the initiation of a pilot program at the border crossing. PPQ
                  officials stated that the pilot program was designed to put the ports on-line
                  and track T&E shipments electronically.



USDA/OIG-Audit No. 33601-3-Ch                                                               57
                  The electronic tracking system was to assist PPQ personnel in monitoring
                  the status of T&E shipments and taking action on shipments that do not exit
                  the country within timeframes provided for in their permits. However, the
                  system was not effective because its data was not updated in a timely
                  manner. We judgmentally reviewed 49 T&E shipments to determine their
                  status as of our review date of August 8, 2001. As of that date, the system
                  disclosed that only 17 (35%) of the 49 shipments had exited the country in a
                  timely manner, the system contained no entries to show the status of the
                  remaining 32 shipments. As of our review date, these shipments had
                  exceeded the 7-day limit to exit the country by periods ranging from 9 to 103
                  days. PPQ personnel had not followed up on these missing shipments and
                  could not tell us whether they had in fact exited the country. Through an
                  independent review of U.S. Customs tracking system, we were able to
                  confirm that 13 of the 32 shipments had exited the United States within the
                  required 7-day timeframe. However, PPQ was unable to provide support for
                  the remaining 19 shipments.

                  We questioned APHIS officials about the delinquencies, and they stated that
                  they have a large backlog. PPQ officials stated that the port of exit was
                  responsible for entering the exit information for the shipments, but because
                  the port of exit had not been doing this, a PPQ officer had been detailed from
                  the port of entry to where he discovered the backlog. PPQ officials also
                  admitted that they do not often enter the T&E shipments into the system
                  right away.

                  As of August 13, 2001, we determined that 30 of the 49 shipments had
                  actually left the country. PPQ officials could not determine the actual date
                  PPQ entered the closing dates into the system.

                  Midwest Port of Entry

                  One Midwest port of entry did not track T&E shipments. T&E shipments
                  that enter through this port are normally taken off an airplane under seal,
                  loaded on a truck, and the shipped out of the country. We obtained a list of
                  74 T&E shipments that entered the country through this port during a period
                  of September 2000 through February 2001. PPQ officials stated that records
                  showing that the shipments had left were probably at the port of exit. We
                  judgmentally selected 30 of the 74 shipments and found that PPQ could not
                  provide evidence that 12 of these shipments left the country. For four other
                  cases, PPQ records did not show the shipments left the country although
                  airline records reported the shipments left the country. The T&E permits
                  issued by the port of arrival did not specify timeframes for the shipments to
                  exit the country. Without established timeframes, PPQ cannot readily
                  determine if the T&E shipment left the country in a timely manner.




USDA/OIG-Audit No. 33601-3-Ch                                                            58
                    According to PPQ officials, there is no written guidance stating how
                    shipments should be tracked. In practice, the port of arrival notifies PPQ at
                    the port of exit via fax, this port will in turn call the port of arrival to check
                    on any shipment that does not reach them in a few days. The port of arrival
                    will then contact the airlines to determine if the shipments actually left the
                    country.     This information is all communicated verbally, with no
                    documentation kept.

                    Western Maritime Units

                    Two maritime units did not start to track T&E shipments until October 2000.
                    For a period of February 1, 2001, through July 2001, we identified 67 T&E
                    shipments of primarily fresh fruits and vegetables that entered the United
                    States. For 19 of the 67 shipments PPQ had no information to show that the
                    shipments exited the country within the required 6-hour period through the
                    designated land border crossing. According to PPQ, there was no
                    documentation because the shipping line did not adhere to the conditions
                    prescribed in the T&E permit. During the audit PPQ followed through and
                    obtained information to show that all but 1 of the 19 shipments exited the
                    country. For nine T&E shipments, the shipments did not exit the country
                    within the 6-hour period as required by the T&E permits. The delays ranged
                    from 1 to 15 days.

                    PPQ plans to expand its pilot program to allow ports along the Southern
                    border and some ports on the Northern border to access the central data base
                    and track T&E shipments. PPQ plans to have all the ports tracking T&E
                    shipments on line, within the near future. However, other ports are tracking
                    T&E shipments manually through a review of the manifest.

                    We concluded that APHIS needs to establish uniform procedures for
                    monitoring and reconciling T&E Shipments. These procedures should
                    require ports of entry and exit to coordinate their efforts to monitor and
                    reconcile the shipments. APHIS should also ensure that the procedures
                    address overdue or missing shipments and establish a timeframe for referrals
                    of shipments to IES.

Recommendation
No. 27         Establish uniform procedures for monitoring and reconciling T&E
               shipments. These procedures should (1) require ports of entry and exit to
               coordinate efforts to monitor and reconcile T&E shipments, (2) address
               overdue or missing shipments, and (3) establish timeframes for referrals of
               shipments to IES.

                    Agency Position.

                    PPQ agreed with the recommendation, and stated that a draft of new
                    guidelines for T&E work was completed in August 2002 and is in the


USDA/OIG-Audit No. 33601-3-Ch                                                                  59
                   comment phase. These will include additional use of SITC and IES for
                   noncompliance. These guidelines, and a new T&E tracking database, will be
                   implemented by mid-2003.

                   OIG Position.

                   We concur with the plan for increased emphasis on the use of IES and SITC
                   in cases of noncompliance, but need clarification on how the problem with
                   timeliness of referrals will be addressed. In addition, the response did not
                   specifically address the lack of coordination between entry and exit ports, or
                   the need for reconciliation of incoming and outgoing shipments to identify
                   those that fail to exit the country on a timely basis. To reach a management
                   decision on this recommendation, APHIS officials need to clarify how these
                   conditions will be corrected and provide timeframes for the implementation
                   of corrective measures.

Recommendation
No. 28         Direct all work units to include, in each T&E permit, reasonable time
               restrictions within which the shipment must exit the country based on the
               distance between the ports of entry and exit.

                   Agency Position.

                   PPQ officials agreed that reasonable time limits should be listed on all T&E
                   permits, but believed that ports should have the discretion to establish
                   reasonable time limits based on their particular circumstances. In one case,
                   for example, PPQ noted that containerized cargo discharged from a seagoing
                   vessel might remain in the port for a period of days before being moved due
                   to the shortage of trucks to haul the containers. Overall, PPQ believes that 7
                   days is a reasonable timeframe but will immediately begin monitoring the
                   ports for any T&E shipments that remain beyond 7 days.

                   OIG Position.

                   The port mentioned in the response was not the only one at which we found
                   deficiencies; at one port, for example, permits were being issued with no
                   timeframes for exit at all.     Even within a single port, different time
                   restrictions for exit might be appropriate based on the circumstances
                   surrounding individual shipments. We agree with PPQ’s decision to monitor
                   ports and review their permits to ensure that reasonable timeframes are
                   included, however, and concur with PPQ’s management decision. Final
                   action can be reached when the agency provides documentation that the
                   review process has been implemented.




USDA/OIG-Audit No. 33601-3-Ch                                                             60
Recommendation
No. 29         Reconcile T&E shipments at all ports to account for shipments that entered
               the country for which records do not reflect reexportation.

                    Agency Position.

                    PPQ officials agreed that this should be taking place at all ports, and stated
                    that within 2-3 years this could be done more accurately and at lower cost
                    through the use of electronic means such as radio frequency and other
                    tracking systems. PPQ is working on these systems in conjunction with the
                    U.S. Department of Transportation, and they are expected to be ready for
                    testing by 2004.

                    OIG Position.

                    We still believe that interim measures are needed to provide adequate
                    controls until the new electronic tracking devices can be placed into service,
                    since these will not be available for nearly 3 years. The new guidelines and
                    tracking system referenced in the response to Recommendation No. 27 may
                    provide the necessary controls, but to reach management decision on this
                    recommendation APHIS officials need to provide us with a description of
                    the procedures and controls that will be in place to track T&E shipments
                    until the electronic tracking systems are implemented.




USDA/OIG-Audit No. 33601-3-Ch                                                              61
USDA/OIG-Audit No. 33601-3-Ch   62
Objective 6: Background Checks

Finding No. 14    APHIS’ Employee Background Checks Not Timely Made

                  APHIS did not complete criminal history record checks in accordance with
                  Federal Aviation Administration (FAA) requirements. APHIS hiring policies
                  for employees assigned to work in secure areas of commercial airports did
                  not ensure proper background checks. FAA regulations currently require
                  that criminal history record checks be completed on all personnel assigned to
                  secure areas of major commercial airports within a maximum of 45 days of
                  their beginning work. In contrast, criminal history checks of newly hired
                  APHIS inspectors were often not even initiated within 45 days. In addition,
                  APHIS does not perform background checks on temporary employees. The
                  newly hired and temporary employees had access to aircraft and airport
                  operation areas before background checks were completed. As a result,
                  employees whose backgrounds are unknown to APHIS have access to
                  aircraft in violation of FAA security procedures.

                  Title 49 USC Sec. 44936 requires that a criminal history record check be
                  conducted for each individual employee in, or applying for, a position in
                  which the individual has unescorted access to aircraft and secured areas of
                  airports.    A special transitional rule (Public Law 106-528, dated
                  November 22, 2000) allows an employee to be given access to secure areas
                  for a period of up to 45 days before the results of the criminal history record
                  check are completed, provided that the request for the check has been
                  submitted to the appropriate Federal agency and the employment
                  investigation has been successfully completed. Neither of these citations
                  differentiates between fulltime or temporary employees.          However, we
                  determined that APHIS procedures did not follow this requirement.

                  APHIS had hired over 1,100 new personnel within the last year, and only
                  12 percent of those we sampled had had criminal history record checks
                  completed as of October 24, 2001. According to an FAA official, the FAA
                  requires a fingerprint and criminal history check to be initiated by the FBI
                  before employees assume their duties at commercial airports that would
                  grant them unescorted access to secure areas. APHIS performs a National
                  Agency Check and Inquiry (NACI) for officers and technicians, but not until
                  after the employee has been working at his or her assignment, which
                  includes having access to secure areas of the airports. We found that PPQ
                  officers also receive a comprehensive background check (which can take up
                  to 9 months to complete) in addition to the NACI check; PPQ technicians
                  receive NACI checks only; and temporary employees receive no background
                  checks, even though all three positions are given the same access to secure
                  areas in the airports. Airport officials indicated that they did not perform
                  any background checks on APHIS employees because they relied on APHIS
                  to do so.



USDA/OIG-Audit No. 33601-3-Ch                                                             63
                    We issued a Management Alert to APHIS on December 7, 2001.                  In
                    response to the Management Alert, APHIS agreed to several actions.

Recommendation
No. 30         Immediately identify all employees who do not have at least a satisfactorily
               completed NACI background check. Take immediate interim measures, as
               needed, to ensure that such employees are not assigned to positions that
               allow them access to secure areas at facilities such as commercial airports
               and military bases.

                    Agency Response.

                    APHIS officials stated that they have completed a review of the NACI status
                    of all employees as of December 31, 2001. The results were provided to
                    Regional and Port Directors, as well as supervisory personnel at commercial
                    airports. These officials were instructed to take immediate action to ensure
                    that employees lacking a completed NACI check were not to have
                    unescorted access to secure airport areas.

                    OIG Position.

                    We concur with APHIS’ management decision. Final action can be reached
                    when APHIS provides the necessary documentation to OCFO to show that
                    the APHIS personnel at the commercial airports have implemented the
                    agreed-to actions.

Recommendation
No. 31         Immediately notify the FAA that, contrary to information contained in the
               memo sent to that agency on October 5, 2001, NACI background checks are
               not being performed on inspection employees at the time they are employed
               by APHIS. In addition, coordinate with the FAA on this issue so that
               appropriate decisions can be made regarding the level of security clearance
               granted to employees for whom background checks have not yet been
               completed.

                    Agency Response.

                    APHIS officials agreed to draft a letter to replace the one sent to the FAA on
                    October 5, 2001, to ensure that FAA officials had accurate information as to
                    the status of PPQ’s efforts to complete NACI checks on its employees
                    assigned to secure areas of airports.

                    OIG Position

                    We agree with the corrective action specified. To reach management
                    decision, APHIS needs to clarify that the proposed letter to the FAA has
                    actually been sent.


USDA/OIG-Audit No. 33601-3-Ch                                                              64
Recommendation
No. 32         Amend APHIS’ hiring policies to include pre-employment NACI or other
               basic background checks for all inspection employees assigned to airports or
               other secure locations.

                    Agency Response.

                    In its earlier response to the Management Alert, APHIS officials agreed to
                    amend their hiring policies to include a pre-employment check for all
                    employees requiring unescorted access at commercial airports. In the
                    response to the official draft report, they stated that the amended policy was
                    implemented in September 2002. The preliminary NACI check is intended
                    as a supplement to the full background investigation, which is completed
                    after appointment. Unescorted access to secure areas of airports is granted
                    only after completion of the full NACI check.

                    OIG Position.

                    We accept APHIS’ management decision, and believe that this should be
                    sufficient for final action as well.

Recommendation
No. 33         Immediately develop and implement a tracking system to follow-up on all
               cases where employees do not properly complete and return security forms
               needed to initiate NACI checks within a reasonable timeframe.

                    Agency Response.

                    APHIS agreed to use the existing Security Entry Tracking System (SETS)
                    automated database to track the status of all pending security clearance
                    requests in the agency to ensure timely completion. They stated that they are
                    working with OCPM on training agency employees on the accurate
                    completion of the forms needed for clearance to reduce the error and return
                    rates of these forms.

                    OIG Position.

                    To reach management decision on this recommendation, APHIS needs to
                    provide us with its timeframes for implementing the tracking system.




USDA/OIG-Audit No. 33601-3-Ch                                                              65
USDA/OIG-Audit No. 33601-3-Ch   66
Objective 7: GPRA Reporting

Finding No. 15.   APHIS’ FY 2000 GPRA Report Was Not Adequately Supported

                  APHIS’ system for compiling data in support of its FY 2000 annual report
                  under the Government Performance and Results Act (GPRA) did not result
                  in accurate information being presented in the report. The agency derives its
                  GPRA information from AQIM activities and the WADS database, both of
                  which we found to be inaccurate or incomplete (See Findings Nos. 2 and
                  12).     APHIS’ performance indicators did not provide complete
                  measurements of the effectiveness of the PPQ inspection programs. In
                  addition, APHIS did not have controls to verify the accuracy of the
                  information before it was reported under GPRA. As a result, management
                  decisions based on any of the three GPRA performance indicators covered in
                  our audit were without foundation.

                  The purpose of GPRA is to improve the efficiency and effectiveness of
                  Federal programs by setting goals for program performance and by
                  measuring the results of agency activity toward those goals. The annual
                  GPRA program performance report provides feedback to managers,
                  policymakers, and the public by comparing the annual goals to the actual
                  achievement.

                  One of the purposes of PPQ’s AQIM program (discussed under Objective 1)
                  is to generate the necessary statistics for GPRA reports. AQIM uses
                  statistical sampling to collect information about agriculture-related products
                  imported into the country. The results of these statistical samples are
                  projected over the total “universe” of agricultural imports to estimate the
                  percentage of incoming cargo shipments that contain pests or items
                  prohibited for import into the United States. The “compliance rates” quoted
                  in the three performance measures included in APHIS’ GPRA report are
                  based on these percentages. For instance, if AQIM estimates that 2 percent
                  of incoming air cargo contains pests or diseases, it would report a
                  compliance rate of 98 percent for this performance measure.

                  The WADS system (discussed in Finding No. 12) records the number of
                  inspections performed by APHIS personnel at the borders and ports-of-
                  arrival, as well as the results of those inspections. WADS data is used to
                  calculate the “additional compliance rate,” which represents the percentage
                  of inspections that resulted in incoming shipments being brought into
                  compliance by fumigation or other means. The additional compliance rate is
                  added to the AQIM-based compliance rate to determine the overall
                  compliance rate reflected in the GPRA reports.

                  We performed reviews of all three of the performance indicators used in
                  APHIS’ FY 2000 GPRA report that relate to PPQ’s border and port



USDA/OIG-Audit No. 33601-3-Ch                                                            67
                  inspections. These three indicators measure the compliance rates at U.S.
                  borders for (1) international air passengers, (2) border vehicles, and
                  (3) cargo (sea and air). We found deficiencies with all three indicators, as
                  described below.

                  a. Performance Indicators Did Not Measure Inspection Activities

                     The use of compliance rates to measure PPQ’s performance did not
                     provide a reliable measurement of PPQ’s effectiveness in excluding
                     agricultural pests and diseases from the United States for two of the three
                     performance indicators—air passengers and border vehicles. As noted
                     on the previous page, the compliance rates reported for these
                     performance indicators consist of two elements: (1) the AQIM
                     compliance rate, which reflects the percentage of incoming shipments
                     that the agency’s AQIM studies indicate to be free of prohibited pests,
                     and (2) the agency’s actual interception rates, derived from the WADS
                     reports. To obtain the “overall compliance rate,” APHIS adds these two
                     figures together. APHIS is in effect saying that the combined
                     percentages of estimated pest-free shipments and actual pest-intercepted
                     shipments reveal how well those shipments are complying with APHIS
                     regulations and consequently how well PPQ is performing.

                     PPQ’s performance would more accurately be measured by determining
                     the “performance gap” between the statistically projected interception
                     rate determined by AQIM activities and the actual interception rate
                     recorded in WADS. One of the primary stated purposes of AQIM is to
                     evaluate the effectiveness of PPQ’s existing inspection programs (serve
                     as a quality control program), the same information that should be
                     reported under GPRA.         Such determinations can only be made,
                     however, by comparing the statistically projected estimates of
                     approaching shipments containing pests or diseases to the actual pest
                     interception rates reflected in WADS. In other words, PPQ’s
                     performance is realistically measured by the number of infected
                     shipments it identifies compared to the number of infested shipments it
                     should identify. If the QMI rate reflected in WADS is lower than the
                     rate computed under AQIM, it indicates that PPQ’s current inspection
                     methods are not identifying all incoming shipments that contain
                     unwanted pests or diseases.

                     PPQ’s analysis of the FY 2000 AQIM results measured the performance
                     “gaps” for air passenger baggage and for border vehicles. For air
                     passenger baggage, AQIM estimated an approach rate of 5.9 percent as
                     compared to an actual QMI rate (from WADS) of 1.5 percent. Based on
                     these percentages, PPQ estimated that its inspectors at the airports had
                     missed over 2.5 million QMI’s during FY 2000. Likewise, the AQIM
                     results for incoming motor vehicles disclosed an estimated approach rate
                     of 2.8 percent and an actual interception rate of only 0.2 percent. Based


USDA/OIG-Audit No. 33601-3-Ch                                                            68
                        on this comparison, PPQ estimated that its inspectors missed
                        91.7 percent (approximately 2.3 million) of the potential QMI’s for
                        motor vehicles entering the United States. PPQ did not make similar
                        comparisons for cargo.

                        According to an APHIS official, these “gaps” in performance were not
                        used as the basis of the agency’s GPRA reporting because they would
                        have been too confusing for readers to understand.       However, we
                        concluded that the addition of the performance gaps to the compliance
                        rates in the Annual Performance Report would provide a more complete
                        picture of PPQ’s performance in preventing pests and diseases from
                        entering the United States.

                    b. The Annual Report Provided Misleading Performance Indicators

                        The FY 2000 and 2001 Annual Performance Plans and the 2000 Annual
                        Performance Report did not fully disclose the procedures used in
                        calculating the compliance rates that reported PPQ’s performance under
                        GPRA. The compliance rates reported for international air travelers,
                        border vehicles, and cargo (sea and air) were reported as having been
                        statistically derived, but included non-statistical adjustments that were
                        not disclosed in the report.

                        The FY 2000 performance report showed the following targeted and
                        actual compliance rates for that fiscal year:

       Figure 5: Targeted and Actual Compliance Rates Reported in the FY 2000 GPRA Report.

                 Pathway                 FY 2000 Target Rate           FY 2000 Actual Rate
       International Air Passengers              95.4%                         95.2%
       Border Vehicles                           97.1%                         97.1%
       Cargo                                     96.5%                         97.3%


                        The wording contained in the report clearly indicates that all of the
                        information used to compute these compliance rates was statistically
                        derived. The report states that, “It is important to note that compliance
                        rates are based on statistical sampling; the margin of error is
                        +/ 0.5 percent. The actual performance results, which are listed in the
                        table above, are the midpoint of the range. The data used to measure the
                        performance goal are collected through Plant Protection and Quarantine
                        (PPQ) AQI Monitoring activities.”

                        In actuality, the statistical midpoint of the compliance rate for
                        international air passengers, based on AQIM data, was only 93.8 percent.
                        However, an upward adjustment of 1.4 percent was made to reflect the



USDA/OIG-Audit No. 33601-3-Ch                                                              69
                     percentage of inspections recorded in WADS that resulted in
                     interceptions of prohibited items. The explanation in the GPRA report,
                     noted above, makes no mention of the inclusion of this non-statistical
                     data. Similar adjustments were made to the compliance rate for border
                     vehicles, in which the AQIM projected midpoint compliance rate of
                     96.9 percent was increased by the 0.2 percent actual QMI rate derived
                     from the WADS reports.

                     The APHIS statistician believed that the method used to compute the
                     compliance rates was valid. Our statistician concluded that the direct
                     combination of statistical and non-statistical information would not result
                     in valid conclusions regarding the overall compliance rates. Moreover,
                     because the performance report provides misinformation about the
                     derivation of the data, the reader is not given the opportunity to arrive at
                     his/her own conclusion about its validity.

                     PPQ based the reported compliance rate for cargo (sea and air) on a
                     somewhat different computation, using the AQIM-projected midpoint
                     compliance rate of 95.6 percent and adjusting this by the number of
                     shipments per WADS that were made “enterable” through fumigation or
                     other means. (According to the FY 2000 WADS report, 1.7 percent of
                     cargo shipments inspected by PPQ needed fumigation.) APHIS officials’
                     rationale for this adjustment was that the fumigations brought the
                     shipments into compliance, thus increasing the overall compliance rate.
                     While this methodology appears more logical than that used to compute
                     the overall compliance rates for air passengers and border vehicles, it
                     still represents the direct combination of statistical and non-statistical
                     data, a fact not disclosed anywhere in the GPRA report.

                  c. AQIM Data Was Unreliable

                     As noted in Finding No. 2 of this report, AQIM inspections were not
                     always performed according to the requirements of the statistical
                     sampling plans provided to the ports by PPQ Headquarters. Examples of
                     this are noted below.

                     Projections were made from non-statistical samples. We visited three
                     maritime ports and three airports that were included in APHIS’ GPRA
                     sample. We found that 365 of 2,993 AQIM inspections identified in the
                     FY 2000 summary report of AQIM activities were not randomly
                     selected. Overall five of the six ports we visited that were included in
                     APHIS’ GPRA-reporting process were not selecting AQIM samples in a
                     statistical manner, as required by Chapter 2 of the AQIM Handbook.

                     Reported data was not always based on comprehensive inspections. PPQ
                     inspectors did not always inspect samples that could be considered
                     representative of the incoming shipments.         For example, of


USDA/OIG-Audit No. 33601-3-Ch                                                             70
                     57 worksheets we reviewed from AQIM inspections at one port that
                     required statistical sampling, only 30 showed that the samples were
                     actually selected from a hypergeometric table—a system that determines
                     the number of boxes that will constitute a representative, statistical
                     sample from a container. Of the other 27 inspections, 14 did not
                     document any selection method, and 13 were recorded as being
                     “100 percent inspections.” However, according to the port director, in
                     some of these instances the inspectors were merely “walking around the
                     boxes” when they documented that 100-percent inspections had been
                     performed. Therefore, we believe that there is little assurance that these
                     shipments were properly inspected.

                     Sample sizes were smaller than required. As noted in Finding No. 2,
                     ports routinely selected fewer shipments for AQIM inspection than the
                     numbers required in the statistical sampling plan. This occurred at five
                     of the six ports we visited. Although this by itself would not necessarily
                     cause statistical projections to be inaccurate, it could be a contributing
                     factor when combined with the other sampling problems noted above.

                  d. Scope Limitations Resulted in Misleading Reporting

                     The GPRA compliance rate for border vehicles, 97.1 percent, was based
                     entirely on information reported from the U.S.-Mexico border and
                     completely excluded AQIM and WADS information from the U.S.-
                     Canadian border. APHIS’ National AQIM Coordinator stated that only
                     4 of the 10 Northern border ports operating AQIM vehicle programs
                     were consistently reporting their results. The coordinator did not believe
                     that this was representative of the entire Northern border or that he had
                     sufficient control over the ports to get the information; thus, the Northern
                     border data was not used for GPRA.

                     We concluded that this exclusion makes the reported compliance rate
                     largely meaningless, since the Northern border accounted for an
                     estimated 29 percent of the total vehicle traffic entering the United States
                     in FY 2000. In addition, because of the considerable differences in the
                     inspection programs being operated on the two borders, the compliance
                     rate at one border would not necessarily reflect the rate at the other
                     border. The FY 2000 GPRA report did not indicate that the reported
                     compliance rate of 97.1 percent was only representative of one of the
                     Nation’s borders.

                     In addition, the GPRA report did not fully describe the components of
                     the cargo compliance rate. The report shows a 97.3 percent compliance
                     rate based on maritime and air cargo inspections. However, through our
                     review of the supporting documentation, we found that the reported
                     cargo compliance rate also included land cargo inspections. Thus the



USDA/OIG-Audit No. 33601-3-Ch                                                             71
                     reader is once again misled because he/she will assume the compliance
                     rate of 97.3 only represents maritime and air cargo inspections.

                  e. Cargo Compliance Rates Did Not Include Rail Cargo

                     None of the three performance indicators reflect incoming rail cargoes,
                     since these are not covered under AQIM.

                     We concluded that APHIS’ GPRA report did not credibly reflect agency
                     accomplishments because the agency did not use methodology that
                     provided realistic assessments of its success rates in preventing the entry
                     of prohibited pests and diseases into the country. In addition, PPQ did
                     not have adequate procedures to ensure that the data it used to prepare
                     the reports was either complete or valid. According to APHIS officials,
                     16 different people calculate the 3 performance indicators we reviewed.
                     However, APHIS does not have written GPRA reporting procedures for
                     the indicators and does not maintain written instructions on how these
                     indicators are calculated. Furthermore, APHIS’ annual performance plan
                     does not describe the procedures the agency should use to verify and
                     validate the AQIM and WADS performance data. According to APHIS
                     officials, verification of the information shown in the APHIS annual
                     report is not performed at the Headquarters level. The GPRA staff
                     performs a spot check of the data to ensure its reasonableness but not its
                     accuracy. Officials agreed that because of this limited review only
                     significant discrepancies would be noticed.

                     In some cases, validation of the data would not be possible under the
                     inspection system we observed. For example, at one port, one of every
                     six inspection worksheets we examined failed to document how the
                     samples were selected. Also, in cases where PPQ officers walked
                     around boxes and still indicated a 100-percent inspection, the number of
                     boxes actually inspected would be in dispute. In all of these cases, it
                     would be impossible after the fact to determine how many boxes the
                     inspectors had actually examined, or whether that number would have
                     equaled the number required had the hypergeometric tables been used.

                     We concluded that APHIS personnel responsible for preparing the
                     GPRA reports need to take steps to ensure that future reports fairly and
                     accurately present the results of PPQ’s performance. These would
                     include written procedures and controls over how to collect, calculate,
                     and report the data; and how to verify and validate the data to ensure that
                     information collected for use in the GPRA report is reasonably accurate.
                     In addition, APHIS needs to ensure that compliance rates are based on
                     information that presents a fair and accurate representation of APHIS’
                     inspection operations, and that any scope limitations are disclosed in the
                     report.



USDA/OIG-Audit No. 33601-3-Ch                                                            72
Recommendation
No. 34         Notify the Department and congressional offices that the FY 2000 and
               2001 Annual Performance Reports are seriously deficient and should not be
               relied upon. Prepare a plan to accurately report in the FY 2003 Annual
               Performance Report.

                   Agency Response.

                   Agency officials responded that they were in the process of reviewing and
                   revising their performance measures and indicators and are developing a
                   new APHIS strategic plan.

                   OIG Position.

                   We agree with the agency’s response to the recommendation. Before we can
                   reach management decision, the agency needs to provide timeframes for the
                   development of new performance measures and indicators for the
                   FY 2003 Annual Performance Report.

Recommendation
No. 35         Include in subsequent annual performance reports the performance gaps
               between actual approach and the AQIM estimated approach rates as
               performance indicators.

                   Agency Response.

                   Agency officials disagreed with the recommendation to include, in the
                   annual performance report, the performance gaps between the actual
                   approach rates and the AQIM estimated approach rates as performance
                   indicators. They stated that compliance rates and customer satisfaction are
                   external performance measures that should be reported to Congress annually,
                   while the performance gaps between estimated and actual approach rates are
                   internal performance indicators for use by agency officials. They also stated
                   that performance gaps should not be used for GPRA reporting because they
                   can be misleading for various reasons cited in the response.

                   OIG Position.

                   We agree that compliance rates and customer satisfaction are important
                   performance indicators and should be included in the annual performance
                   report. However; we also believe that the agency’s performance in
                   intercepting prohibited product - as demonstrated by the gaps between
                   AQIM approach rates and actual approach rates recorded in WADS - is an
                   important performance indicator which cannot be ignored in the GPRA
                   reporting process. In fact, compliance rates that are computed without
                   reference to these performance gaps cannot be either accurate or meaningful.



USDA/OIG-Audit No. 33601-3-Ch                                                             73
                    If agency officials believe that the performance gaps as currently presented
                    are misleading, then the agency should review its methods of computing the
                    gaps rather than simply excluding them from the process of determining
                    compliance rates. To reach a management decision, APHIS officials need to
                    provide us with a plan to take these important performance indicators into
                    account in upcoming reports.

Recommendation
No. 36         Develop written procedures for GPRA measures, including internal controls
               over the collection, calculation, and reporting of performance data, to
               support the results included in APHIS’ annual reports.

                    Agency Response.

                    The agency’s response stated that many internal controls are in place to
                    provide guidance for the collection and reporting of performance data. This
                    included data quality checks for WADS, and a national AQIM handbook
                    that is available to all port offices. The response stated further that new and
                    revised procedures and policies will soon be implemented to improve
                    internal controls over data sources and data quality.

                    OIG Position.

                    The internal controls in place did not provide accurate and reliable WADS
                    and AQIM data, as discussed throughout this report. We agree with the
                    agency’s actions to implement new and revised procedures and polices to
                    improve internal controls over data sources and quality. Before we can reach
                    management decision, the agency needs to describe the new procedures and
                    policies that will improve internal controls over the collection, calculation,
                    and reporting of performance data included in the Annual Performance
                    Reports.     The agency also needs to provide timeframes for the
                    implementation of the new and revised procedures and policies.

Recommendation
No. 37         Describe in annual plans specific verification and validation methods that
               will ensure the accuracy of performance results reported and that these
               specific methods are fully implemented. In addition, ensure that any scope
               limitations are clearly presented in the GPRA report.

                    Agency Response.

                    The agency agreed that there were minor omissions in the annual reports.
                    The agency stated that rail cargo was not included because the pathway had
                    not been monitored in the past. Also it was never APHIS’ intent to report
                    compliance on the Northern border. The agency acknowledged the minor
                    omissions and will clarify these points in future annual plans and reports.



USDA/OIG-Audit No. 33601-3-Ch                                                               74
                  OIG Position.

                  The omissions cited in the agency’s response cannot be described as minor.
                  Although the response states that it was never the agency’s intent to include
                  this information, the fact that the reports did not mention these scope
                  limitations makes them highly misleading to any reader who is not aware of
                  the methodology used in assembling the reported data. The reports’
                  incorrect representation of the compliance rates as statistical projections
                  further contributes to the inaccuracy of the picture they present of the
                  agency’s operations. These are serious flaws in the report that need to be
                  corrected, and it is a requirement of GPRA that scope limitations be
                  disclosed in the reports. We agree with the agency’s plans to acknowledge
                  and clarify these omissions in future reports. Before we can reach
                  management decision, the agency needs to describe the verification and
                  validation methods that will be used to ensure the accuracy of reported
                  performance results and the timeframes for the implementation of the
                  verification and validation methods.




USDA/OIG-Audit No. 33601-3-Ch                                                            75
USDA/OIG-Audit No. 33601-3-Ch   76
Scope and Methodology
                  The audit was conducted at APHIS Headquarters and all three regional PPQ
                  offices, recently consolidated to two regional offices. We also visited 22 of
                  the 141 ports in the country. The 22 ports visited consisted of 7 airports,
                  6 maritime ports, and 9 land border and rail facilities. We based the selection
                  of the ports for audit on the level of activity and geographic location. This
                  was done to ensure airports, maritime ports, and land border crossings were
                  included in the audit coverage in all PPQ regions. The audit was directed
                  towards evaluating the safeguarding level provided by PPQ’s Agricultural
                  Quarantine and Inspection Programs. The period covered by this audit
                  includes fiscal years 2000 through 2001; however, prior years were included
                  when necessary.

                  Our audit was performed in accordance with generally accepted government
                  auditing standards. To accomplish the audit objectives, we performed the
                  following:

                     Reviewed applicable laws and regulations, and guidance concerning
                     APHIS role in safeguarding United States borders from the entry of
                     foreign pests and diseases,

                     Reviewed APHIS policies, procedures, and controls over the inspection
                     activities at the ports of arrival,

                     Interviewed APHIS and U.S. Customs officials at Headquarters, regional
                     offices, and at the ports,

                     Reviewed APHIS reports including: PPQ Form 212 (Cargo Hold and
                     Record), PPQ Form 519 (Compliance Agreements), various inspection
                     reports, PPQ Form 597 (Import Permits for Plants and Plant Products)
                     used for T&E shipments. We also reviewed the FY 2000 GPRA report
                     and supporting records, Workload Data Accomplishment Reports,
                     AQIM Standard Operating Procedures, AQIM sampling plans, AQIM
                     monitoring data and AQIM summary reports.

                     Visited ports to observe inspection activities and to evaluate controls and
                     procedures in place at the ports.




USDA/OIG-Audit No. 33601-3-Ch                                                             77
USDA/OIG-Audit No. 33601-3-Ch   78
Exhibit A
APHIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-Audit No. 33601-3-Ch         79
               OIG Audit No. 33601-3-Ch -APHIS Safeguards to Prevent Entry
               of Prohibited Pests and Diseases into the United States


Recommendation No. 1

Redirect Agricultural Quarantine Inspection Monitoring (AQIM) activities to cover all potential
pathways through which pests and diseases could enter the United States, including those which
are not currently covered by normal Plant Protection and Quarantine (PPQ) inspections.

Agency Response

The Agency does not agree that AQIM activities should be redirected but should be expanded to
cover all pathways.

All pathways are not presently monitored. Data has been collected for several pathways and based
on the results of AQIM in some pathways (i.e., pedestrians, cargo of non interest, empty
containers) the decision was made to suspend AQIM monitoring. This decision was made because
of limited resources and because the perceptions of the risk of these pathways were confirmed
(extremely low to non-existent).

PPQ recognizes the fact that there are pathways that should be monitored, and expansion of AQIM
activities is currently planned for [      ] rail and the express "package" pathways. A subgroup of
the National AQIM Team was formed in September 2002 to begin planning, developing, and
implementing of AQIM for these pathways. Implementation is scheduled for January 2003. This
same subgroup will also revise and increase the AQIM activities for the [      ] truck cargo
pathway.

PPQ has put considerable resources into strengthening the scientific support for the pest exclusion
program and the capacity to detect smuggled materials. The Agency has added personnel to its
Center for Plant Health Science and Technology (CPHST) and to the Smuggling Interdiction and
Trade Compliance (SITC) program. Staffing was increased at critical high risk ports of entry.
[           ] which receives thousands of containers each day has increased its staffing from
[    ] since the events of September 11, 2001.




USDA/OIG-Audit No. 33601-3-Ch                                                                 80
Recommendation No. 2

Implement a system for PPQ headquarters and/or the regional office to periodically
oversee each port’s AQIM activities to ensure that these activities are properly
implemented and operating in accordance with headquarters' policies and guidelines.

Agency Response

PPQ agrees with the recommendation.

Oversight of AQIM is a shared responsibility between headquarters, Regions, State Plant
Health Directors, port managers, and local risk committees including the local AQIM
coordinator. A system is in place to oversee AQIM activities at the ports. PPQ
acknowledges that some local port AQIM coordinator positions have remained vacant
due to frequent "turn-over" in the port and local position bidding processes required by
the terms of local union contracts. These two factors result in current AQIM coordinators
at a port changing tours of duty and job responsibilities.

PPQ recognizes this causes problems and these same problems were pointed out in two
recommendations (OA34 and E 107) from the "Safeguarding American Plant Resources"
A Stakeholder Review of the APHIS-PPQ Safeguarding System. PPQ developed a
combined action plan to address these recommendations. When implemented, this action
plan will ensure that national AQIM activities are properly managed and implemented at
each port. This action plan also calls for risk analysis positions at all levels including
local port risk analyst positions. In addition to providing local management of AQIM
activities, port risk analysts will also ensure AQIM data collection, data quality, data
organization, and interpretation and use of data to improve AQI operations.

In addition, the Animal and Plant Health Inspection Service (APHIS) has established and
filled an SES position with a focus on bringing national consistency in the
implementation of AQI programs, including AQIM. The first effort of this position is the
design and implementation of Standard Operating Procedures. The Procedures will be
available on-line and is scheduled to be piloted before the end of 2002 with full
implementation in early 2003.




USDA/OIG-Audit No. 33601-3-Ch                                                                81
Recommendation No. 3

Require the Director of each port operating one or more AQIM activities to appoint an
AQIM coordinator, and Risk Management Team to ensure that these employees are
performing the functions associated with their positions.

Agency Response

PPQ agrees. See Agency Response in Recommendation No.2 above that refers to AQIM
coordinator.

To ensure the formation of Risk Management Teams and coordinators performing the
appropriate AQIM functions, PPQ will revise performance elements and standards. PPQ
will hold the employees and their managers accountable for performing these functions.
State Plant Health Directors or Port Directors will identify a supervisor who will be
responsible for maintenance and management of AQIM activities. The supervisor will
clarify and support local port coordinator roles to ensure that the coordinator position is
not just a data entry person but truly responsible for overall AQIM activity at the port.




USDA/OIG-Audit No. 33601-3-Ch                                                                 82
Recommendation No. 4

Institute procedures to compute the differences between AQIM and actual inception
rates on an annual basis and take actions as appropriate to determine the reasons for large
discrepancies so that corrective actions can be taken.

Agency Response

Procedures to compute the differences between AQIM and actual inception rates have
been in place since 1997. Examples of these analyses for several pathways (air
passenger and southern border vehicle) were provided to OIG during their audit visits.
The results of this type of analysis utilizing AQIM and WADS are the primary measure
of the effectiveness of present inspection procedures in these pathways. This
effectiveness is an internal tool used by managers at various levels to improve the
efficiency and effectiveness of AQI port activities. Training sessions and documentation
have been provided to PPQ managers to properly use this information.

PPQ is aware of the many factors contributing to the large discrepancy that OIG refers to
in the recommendation. While the large discrepancy or "gap" between AQIM and actual
interception rates may appear large, the significance of the risk presented by this gap
must be considered. Much of the prohibited material missed is low risk (apples,
bananas, etc. ) and approximately only 1% of this prohibited material (citrus, mangoes,
etc.) is actually infested with agricultural pests or disease.

PPQ is currently taking corrective actions to better mitigate these high risk items in the
gap. Several ports have implemented improved risk mitigation actions using AQIM
results – [                                                    ]. Results of AQIM [        ]
helped identify the risk of rail cargo and led to expansion of rail cargo inspections in
[                    ] in 2001.

PPQ's mission is to efficiently use its limited resources to identify and combat the more
destructive risks represented in this discrepancy or gap. Increasing inspection efficiency
and reducing the approach rate are examples of PPQ actions to mitigate risk and improve
compliance of agriculture regulations. Even absolute prohibition of all foreign
agricultural items would not completely close the gap.

Findings—[          ]tile survey:

We would like to point out that data was actually shared. PPQ's Port Operations
headquarters staff personnel met with the [     ] tile industry in [ ] in February 2002 to
begin pest mitigation efforts on pests associated with tile. The results of the discussion
were shared with the Eastern Region which in turn disseminated the survey to all
maritime ports receiving [     ] tile.




USDA/OIG-Audit No. 33601-3-Ch                                                                  83
OIG findings - [                  ]

The [        ] data are very misleading. Only a portion of the results of the cargo aircraft
study is presented in their findings. The local [ ] team discussed cargo aircraft risk
mitigation and has revised and implemented new boarding procedures.




USDA/OIG-Audit No. 33601-3-Ch                                                                  84
Recommendation No. 5

Notify other ports, as applicable, of the results of the two [   ] AQIM studies so that
these pathways can be appropriately covered.

Agency Response

PPQ's Eastern Region did notify maritime ports that receive shipments of [       ] tile about
the results of the [ ] study.

The [ ] cargo aircraft study has been turned over to PPQ's CPHST unit for further
analysis, validation, and development of national pest mitigation strategies or procedures,
if appropriate.




USDA/OIG-Audit No. 33601-3-Ch                                                                   85
Recommendation No. 6

Institute procedures to ensure that future AQIM results are reviewed and acted upon in a
timely manner. Such procedures should include notification of applicable regional
offices, State Plant Health Directors, and Port Directors.

Agency Response

PPQ is continuously working to improve notification of AQIM results within and
between all levels of the organization. Examples: monthly national State Plant Health
Director conference calls, monthly national AQIM team teleconferences, weekly regional
State Plant Health Director teleconferences, Deputy Administrator's newsletter, National
Association of Plant Protection and Quarantine Managers (NAPPQM) newsletter, PPQ's
weekly activity highlights, and various local port newsletters and staff meetings. These
channels of communication will be used to disseminate information about AQIM results
which will guide the actions taken at the ports.




USDA/OIG-Audit No. 33601-3-Ch                                                              86
Recommendation No. 7

Assess in a timely manner the number of PPQ inspectors that are needed and whether a
second shift is needed at each [ ] border crossing to address the growing concern over
inspections at the [   ] border.

Agency Response

Assessment of the [       ] border staffing was done in 2001 and revisited in 2002.
[      ] employees are on board since 2001. In the FY 2004 budget, we requested
[ ] new inspector positions along the [       ] border. Shift work has been implemented
in [          ], and is planned for some other locations. Staffing must be increased before
additional shifts can be implemented. Future reassessment of staffing along the [      ]
border will occur as ports continue to collect AQIM data.

The Agency plans to place new officers at ports with large volumes of cargo entries.
However, in some locations intensive inspections cannot be performed until office space
and inspectional facilities are built. USDA is currently negotiating with the General
Services Administration (GSA) on a long-range plan to meet the infrastructure needs on
the [     ]border. PPQ has requested approximately $3.5 million for improvements to
[     ] border inspection facilities in the FY 2004 budget. Discussions have begun with
[     ] agriculture officials regarding possible sharing of existing border facilities. PPQ
expects these facilities to become available during 2005 or 2006.




USDA/OIG-Audit No. 33601-3-Ch                                                                 87
Recommendation No. 8

Perform a staffing assessment taking into account the size and weight of the interceptions
to determine the staffing levels needed to perform inspections at air cargo, maritime
cargo, and border crossings. If needed, seek additional funding from Congress to bring
staffing to needed levels.

Agency Response

PPQ requires Port Directors to annually assess staffing needs. In addition, a systematic
review of ports was implemented in November 2001. Teams comprised of personnel
from headquarters and each regional office reviewed staffing at major ports of entry. In
conducting their assessment, the team considered the volume and type of cargo entering
the port, the risk associated with the cargo, the capacity of facilities in which inspections
are performed, and the intensity of the inspections needed; i.e., tailgate inspection or
complete devanning. Based on these factors, the team submits a recommendation to the
appropriate regional Position Management Committee for final action. Funding for
positions is not currently a barrier. However, PPQ is experiencing problems with
recruiting the number of qualified personnel needed at high volume locations due to the
high cost of living in those locations. PPQ has revitalized its recruitment efforts with the
appointment of a full time coordinator, a focus on local recruiting, and pre-employment
testing to ensure high quality candidates.




USDA/OIG-Audit No. 33601-3-Ch                                                                   88
Recommendation No. 9

Based on the assessment recommended above, ensure that PPQ personnel currently at the
ports are adequately allocated so that inspections of cargo shipments allow for
performing a higher percentage of intensive inspections.

Agency Response

PPQ agrees that ports need to be adequately staffed to allow for efficient and effective
inspections of cargo shipments. See Agency Response to Recommendation No. 8.




USDA/OIG-Audit No. 33601-3-Ch                                                              89
Recommendation No. 10

Perform a national study of cruises from countries classified as high risk, such as
Jamaica, to assess the risk of introducing exotic pests or diseases into the United States
and to determine whether increased inspection of cruise ships is warranted. Based on the
results of this study, develop inspection procedures for cruises from high- risk countries.

Agency Response

A risk assessment of foreign vessels (garbage, deck and structure) entering U. S. ports
was completed by the Policy and Program Development staff early in 2002. The analysis
and recommendations were submitted to regional offices for comment. Once all
comments are considered, PPQ will then modify recommendations if necessary and
revise the national ship-boarding policy as needed to further mitigate risk. It is anticipated
that this will be completed by March 30, 2003.

PPQ agrees that it may be desirable to perform an assessment to identify if cruises, from
countries already classified as high risk, are actually "high risk" when arriving in U.S.
ports of entry. Port Operations will submit a request to CPHST to perform this
assessment when the next request for work activities is made by CPHST.

Vacation cruises from foreign ports, including Jamaica, were the subject of the Cruise
Ship Monitoring Survey conducted April 1998 through March 1999. Jamaica is not a
high risk origin for cruise ship passengers based on years of operational data from cruise
ship passenger inspections (WADS), pest interception data (PIN 309) and the Cruise Ship
Passenger Monitoring Survey. While some cruise ships include a port of call in Jamaica
as a part of the voyage, passengers do not originate in Jamaica. Also, the cruise ships
have U.S. and not foreign food stores. The passengers originate and disembark in the
United States. Air passengers from Jamaica may be from any location and thus the
potential is there for them to bring items purchased commercially or home grown.




USDA/OIG-Audit No. 33601-3-Ch                                                                    90
Recommendation No. 11

Based on the results of the studies, determine the number of inspectors needed to clear
cruise ships so that all passengers and baggage are subject to inspection.

Agency Response

The Agency is in the process of revising policy and procedures that address the clearance
of cruise ships and cruise ship passenger baggage. As discussed in the Agency Response
to Recommendation No.10, the vessel assessment has been completed and a revised
policy should be issued within 6 months that covers the vessel only. The assessment of
cruise ship passengers and baggage was completed and a policy was issued requiring the
monitoring rather then routine clearance of cruise ship passenger baggage on Caribbean,
Mexican, and Bermuda cruise ships. PPQ will combine the results of these two studies
and determine the appropriate number of inspectors to clear cruise ships and passenger
baggage based on risk.

Appropriate staffing levels, policies and procedures for cruise ships from destination
other than those listed above will be determined after CPHST conducts assessments to
identify the risk of cruise ships arriving from other countries. The study is expected to be
completed in 12 months.




USDA/OIG-Audit No. 33601-3-Ch                                                                  91
Recommendation No. 12

Institute procedures for all ports to devan a sample of incoming cargo containers on an
ongoing basis with emphasis to be placed on high risk shipments and cargoes which
involve shippers and importers with histories of smuggling or other violations.

Agency Response

PPQ ports participating in AQIM currently devan selected cargo shipments on an
ongoing basis. Current SITC protocols require devanning for a thorough investigation of
possible smuggling of prohibited cargo. This SITC procedure is occurring at a number of
PPQ ports of entry. The port of [ ], through its QCET program, has identified high risk
cargo such as [ ] tile using devanning procedures.

Soon guidance will be provided to PPQ ports to ensure that the appropriate inspection
intensity (i.e., via devanning) is applied consistently to high risk cargo. Uniform
procedures will ensure all ports are devanning a sample of cargo containers, dependent on
available facilities and resources. This guidance will be developed and distributed to PPQ
personnel by June 2003.




USDA/OIG-Audit No. 33601-3-Ch                                                                92
Recommendation No. 13

Ensure that each port-of-entry has personnel and facilities available, either directly or
under agreements with the U.S. Customs Service, to enable them to devan containers as
needed.

Agency Response

PPQ is working with GSA to obtain additional facilities for inspection and devanning at
northern border ports-of -entry .The PPQ FY 2004 budget allocates approximately $3.5
million for improvements to northern border inspection facilities. PPQ is exploring the
contracting process required to establish Cargo Examination Sites (CES) at ports with
limited inspection facilities. These sites would provide additional devanning locations.
Additional staffing has been provided to ports, especially on the northern border. In the
FY 2004 budget, PPQ has requested [ ] new inspector positions for the northern border.

Also see Agency Response to Recommendation No. 8.




USDA/OIG-Audit No. 33601-3-Ch                                                               93
Recommendation No. 14

Develop written procedures governing the Line Release Program [                   ].

Agency Response

The Agency agrees with this recommendation. A group has been formed; the BRASS
Review Group, with representatives from the nine [     ] border service ports, the Eastern
and Western Regions, and headquarters. It is estimated that this task will be completed
within the next 6 months.




USDA/OIG-Audit No. 33601-3-Ch                                                                94
Recommendation No. 15

Develop an online system of records to maintain a database of Line Release Program
participants on an ongoing basis, including up-to-date information from all ports of entry
on any program violations committed.

Agency Response

Original: APHIS agreed that automating the current system would be extremely
beneficial. It stated that an online system of records with links to multiple databases
would require a review of the current BRASS system, current IT compatibility, and
available budgetary resources. The BRASS Review Group will be charged with
investigating the automation of the current system, along with developing
recommendations and timelines for completion.

Amended Agency Response

The BRASS data system is owned and controlled by Customs. The PPQ BRASS Review
Group has no control over maintenance or management of the BRASS database. The
Review Group is working on getting access to the BRASS data from Customs for the
purpose of identifying shippers known to smuggle cargo. However, Customs has told us
it will stop using BRASS sometime soon (they told us this in June but have yet to
suspend activity) and will begin to use another system. PPQ relies on this database, so
further work on IT compatibility and budget pertaining to this issue awaits decisions from
Customs.

PPQ, SITC in particular, is using other Customs databases; i.e., Automated Commercial
System and Automated Targeting System (ATS), to identify repeat violators and to share
this information with ports.

PPQ has completed other data base work with Customs on its new Automated
Commercial Environment and International Trade Data Systems. In addition to many of
the cargo clearance functions, PPQ plans for these systems to handle PPQ Line Release
Program participants on an ongoing basis, including up-to-date information from all ports
of entry on any program violations committed. PPQ has completed the business case and
the requirements for these systems. Customs plans to roll out these systems in 5 years.

Recommendation No. 16

Include rail cargo in PPQ AQIM risk-assessment system to determine the relative degree
of risk associated with this pathway.




USDA/OIG-Audit No. 33601-3-Ch                                                                95
Agency Response

PPQ agrees. A subgroup of the National AQIM Team was formed in September 2002 to
plan, develop, and implement collection of data needed to assess the risk of the rail
pathway. Implementation is scheduled for spring 2003.




USDA/OIG-Audit No. 33601-3-Ch                                                           96
Recommendation No. 17

Require border crossings to regularly use Customs' Automated Manifest System (AMS)
to identify incoming rail cargoes of agricultural interest so that high risk cargoes can be
stopped and inspected.

Agency Response

Not all [    ] border crossings can hold and inspect incoming rail shipments since they
do not have facilities to do such. Many trains go across the border points, and the whole
train proceeds as an in-bond unit to such destinations as [
                ].

Requiring all border crossings to use the current Customs' AMS is not always useful.
The AMS has several drawbacks to make it an effective tool in the use of identifying and
holding cargo:

1. AMS is a voluntary system. The rail lines are not required by law to use AMS, nor are
they required to use it at each border crossing they use. Paper manifests may still be used
at select locations.

2. Descriptions on manifests are free text. Due to the lack of standardized descriptions, it
is difficult to target high risk commodities on this automated system.

3. Country of origin is required data for PPQ inspectional activities. Country of origin is
not required on a manifest. Only the place of receipt and the port of lading are required
on a manifest. Rail manifests from Mexico and Canada list Mexican and Canadian ports,
respectively, even though the cargo may originate in another country.

4. What comes by train can come by truck. There are no automated truck manifests at this
time. PPQ is highly dependent on Customs and brokers for these inspections.

PPQ is better served by using resources to develop the International Data System to
overcome many of the shortcomings found on the Customs' AMS.

PPQ has completed work with Customs on its new Automated Commercial Environment
and International Trade Data Systems. These systems will replace the Customs' AMS. In
addition to many of the cargo clearance functions, PPQ plans for these systems to
identify incoming rail cargoes of agricultural interest so that high risk cargoes can be
stopped and inspected. Complete to date is the PPQ business case and PPQ system
requirements for these systems. Customs plans to rollout these systems in 3-5 years.




USDA/OIG-Audit No. 33601-3-Ch                                                                  97
Recommendation No. 18

Develop a system to ensure that all rail cargo is at least subject to selection for inspection,
either at border crossings or at the inland destination cities.

Agency Response

Currently, PPQ is working on developing the ATS to set up rules that would
automatically check bill of lading and entry data to ensure that all imported rail cargo is
subject to selection for inspection. This could be done for any border crossing or inland
site. ATS is the short term solution. The International Trade Data System under
development for all Government agencies involved in trade activities. PPQ is actively
pursuing this option as the future system to set up targeting for detection and inspection
of high risk cargoes.

Immediate action being taken on this issue is the hiring of more officers over the next 2
years into inland and the Northern border sites; some of these officers will monitor and
inspect rail cargo.




USDA/OIG-Audit No. 33601-3-Ch                                                                     98
Recommendation No. 19

Coordinate with Veterinary Services (VS) to develop a standardized and comprehensive
surveillance checklist for PPQ inspectors to ensure that all animal disease exclusions are
included during monitoring visits.

Agency Response

PPQ will consult with VS on the inclusion of additional items for monitoring activities.
Further, a checklist will be developed for those activities that are currently stated in the
Airport and Maritime Operations Manual that are not covered by PPQ Form 288 or PPQ
Form 252R. The forms provide a checklist for monitoring garbage regulations aboard
ships and in catering facilities, respectively.




USDA/OIG-Audit No. 33601-3-Ch                                                                  99
Recommendation No. 20

Direct all PPQ units to enter into compliance agreements with all firms handling foreign
garbage.

Agency Response

Within the next 2 weeks, PPQ headquarters will reiterate in the form of a memo to the
field that any entity that handles garbage must be under a compliance agreement or
directly supervised by PPQ. Requirements for monitoring and recalibration of sterilizer
units will also be repeated. Additionally, PPQ is currently in the process of developing a
contract for the development of an electronic database that would provide template
compliance agreements, signed agreements and necessary review schedules, and
monitoring schedules. Within the next year, a risk assessment of airline garbage should
be conducted to determine that this utilization of PPQ staff is appropriate for the level of
risk involved.




USDA/OIG-Audit No. 33601-3-Ch                                                                  100
Recommendation No. 21

Implement controls to ensure that all PPQ units monitor the activities of all garbage-
handling firms on a monthly basis and supervise the recalibration of sterilizer units at
least twice a year.

Agency Response

See Agency Response to Recommendation No. 20.




USDA/OIG-Audit No. 33601-3-Ch                                                              101
Recommendation No. 22

Expedite the issuance of policy that will require PPQ inspectors to inspect shipments
from importers with a history of violations.

Agency Response

PPQ currently has procedures in place that requires PPQ inspectors to inspect shipments
from importers with a history of violations. SITC uses a national database and a system
of Trade Alerts to communicate information about importers with a history of violations
to all PPQ ports.

Guidance will be provided to all PPQ ports to ensure that the appropriate inspections are
applied to high risk cargo which includes shipments from importers with a history of
violations. This will be a part of uniform procedures that will ensure all ports are
devanning a sample of cargo containers, dependent on available facilities and resources.
This guidance will be developed and distributed to PPQ personnel by June 2003.




USDA/OIG-Audit No. 33601-3-Ch                                                               102
Recommendation No. 23

Require each port to institute a system of a second party reviews to ensure the accuracy
of WADS data entered into the system.

Agency Response

The accuracy of data issues is being addressed on various fronts. From an information
systems perspective, a contract has been awarded to the information system company,
CRI, to develop a centralized system for data collecting and reporting. Parts of the
requirements in the task order are to propose a solution for quality assurance and
validation of the port data.

Both the Eastern and Western Regions have developed Quality Assurance Data
Management plans to address the various issues surrounding data quality. Data collection
as well as quality checks would be routed though the PPQ State office for review before
sending the revised data files onto the regional office. Headquarters will be reviewing
these data management plans to determine feasibility of deployment nationwide.




USDA/OIG-Audit No. 33601-3-Ch                                                              103
Recommendation No. 24

Ensure that monitoring reviews conducted at the ports by both headquarters and the
regional offices include review steps to ensure that each port has an adequate system and
that WADS data is input in a timely and accurate manner.

Agency Response

The Agency agrees.

A systematic approach to check all operational data (like WADS) has been developed
and is currently used by all personnel conducting port, staffing, and AQIM reviews. This
approach addresses quality of data management at the ports of entry. This systematic
approach is above and beyond what is called for in PPQ's Port and Program Review
Guidelines.




USDA/OIG-Audit No. 33601-3-Ch                                                               104
Recommendation No. 25

Ensure that all PPQ personnel assigned to WADS duties at the ports have been provided
with adequate training.

Agency Response

As part of the port review process, personnel responsible for collecting and entering
WADS data are provided training in data collection and submission. Once the centralized
data collection and reporting tools are deployed, personnel will be trained and/ or
provided with materials on the use of the system. The train the trainer methodology will
be used to implement the training.




USDA/OIG-Audit No. 33601-3-Ch                                                              105
Recommendation No. 26

Revise the WADS manual to provide better instructions to PPQ personnel at the ports
regarding retention, collection, and input of data.

Agency Response

The Agency agrees with the recommendation.

Detailed user documentation on all aspects of data handling from input to collection to
retention is one of the tasks of the centralized system for data collecting and reporting
contract. Since the beginning of this year, the Regions have been collecting comments
from the ports on the WADS codes. Comments received from the ports on clarifying
code descriptions, adding codes, deleting codes, etc., will be used to enhance the new
WADS manual. Many of the recommendations have already been incorporated into the
current manual.




USDA/OIG-Audit No. 33601-3-Ch                                                               106
Recommendation No. 27

Establish uniform procedures for monitoring and reconciling T&E shipments. These
procedures should (l) require ports of entry and exit to coordinate efforts to monitor and
reconcile T&E shipments, (2) address overdue or missing shipments, and (3) establish
timeframes for referral of shipments to Investigative and Enforcement Services (IES).

Agency Response

The Agency agrees that uniform procedures for monitoring and reconciling T &E
shipments should be used. All ports were recently reminded to use specific safeguarding
conditions in their permits. A draft of new guidelines for T &E work was completed in
August 2002 and is in the comment phase. Additional emphasis is put on the use of SITC
and IES for non-compliance. Once the new guidelines are rolled out, a T &E tracking
database will also be implemented across PPQ. Guidelines and data base rollout is
projected for mid-2003. Also, the CFR pertaining to commodities in transit is being
reviewed due to its inability to address our current regulatory issues. A new regulation for
transit shipments is planned for mid-2003. More steps to implement uniform procedures
are described in our Agency Response to Recommendation Nos. 28 and 29.




USDA/OIG-Audit No. 33601-3-Ch                                                                  107
Recommendation No. 28

Direct all work units to include in each T&E permit reasonable time restrictions within
which the shipment must exit the country based on the distance between the ports of
entry and exit.

Agency Response

It appears to PPQ that this recommendation is based on OIG's findings that the time to
move T&E cargo is "excessive" for the port of [       ].

The Agency agrees that reasonable time limits (within which the shipment must exit the
country) should be listed in all T&E permits. However, we believe that a port should
have the discretion to establish a reasonable time limit based on all circumstances at a
port. Generally, we believe that the time limit should not exceed a 7-day window. For
example, in [        ] containerized cargo is discharged from a vessel is sealed and
safeguarded and may stay in the port up to 7 days before exportation or treatment. This is
because of frequent shortages of chassis and/or tractors to move the containers
immediately. Given the circumstances, we believe our current practices are reasonable.
The Agency will immediately begin monitoring the ports for any T&E shipments that
remain beyond 7 days. Port leadership will be asked to enforce all safeguarding
procedures to ensure that the delay in movement does not present a pest risk to U.S.
agriculture.




USDA/OIG-Audit No. 33601-3-Ch                                                                108
Recommendation No. 29

Reconcile T&E shipments at all ports to account for shipments that entered the country
for which records do not reflect reexportation.

Agency Response

The Agency agrees this should take place at all ports.

Since 2001, PPQ has assigned one person to track exits and collect data on northern
border ports where high risk fruit shipments from Mexico are scheduled to exit the
United States and enter Canada during the peak of Mexican fruit production. As of July
2002, about 99% of all shipments exited in a timely manner and those that failed to exit
were referred to IES. IES has resolved about half of those cases.

PPQ believes that within 2-3 years this function can be performed more accurately and at
a lower cost to the taxpayer by using electronic methods at the exit point, rather than
increasing staffing for this task. PPQ started to explore radio frequency and other
tracking systems in 2001. CPHST is working on these systems with the U.S. Department
of Transportation. Systems meeting our needs should be ready for beta testing in 2004.




USDA/OIG-Audit No. 33601-3-Ch                                                              109
Recommendation No. 30

Immediately identify all employees who do not have at least a satisfactorily completed
NACI background check. Take immediate interim measures, as needed, to ensure that
such employees are not assigned to positions that allow them access to secure areas at
facilities such as commercial airports and military bases.

Agency Response

Original: APHIS agreed to complete a review of affected employees' official personnel
folders to verify their current clearance levels by December 21, 2001. Any affected
employee who has not been cleared by, at a minimum, a NACI will be assigned work not
requiring unescorted access to secure areas at commercial airports. APHIS is
concurrently coordinating with the Department's Office of Crisis Planning and
Management (OCPM) and the Office of Personnel Management (OPM) to institute an
expedited preemployment criminal background check to meet minimum FAA security
requirements for all APHIS employees needing unescorted access at commercial airports.

Amended Agency Response

APHIS has completed a review of the NACI status of all employees. The review was
completed prior to December 31, 2001. The results of the review were released to
Regional Directors, Port Directors and supervisory personnel at all commercial airports
with instructions to take immediate action to ensure that employees lacking a completed
NACI background investigation were not to have unescorted access to secure airport
areas. When necessary, work and shift assignments were changed to ensure that no
employee lacking proper clearances is assigned to secure areas of the airport.




USDA/OIG-Audit No. 33601-3-Ch                                                             110
Recommendation No. 31

Immediately notify the FAA that, contrary to information contained in the memo sent to
the Agency on October 5, 2001, NACI background checks are not being performed on
inspection employees at the time they are employed by APHIS. In addition, coordinate
with the FAA on the issue so that appropriate decisions can be made regarding the level
of security clearance granted to employees for whom background checks have not yet been
completed.

Agency Response

APHIS agreed to draft a letter clarifying the memo originally sent to the FAA on October
5, 2001. In this letter, APHIS informed FAA of its efforts to implement an expedited
" Advanced NAC" process whereby prospective employees would be cleared through at
least a criminal history records check prior to establishing a reporting date, thus meeting
FAA requirements. APHIS further stated that if this process has an adverse impact on its
ability to fill positions due to unacceptable delays in getting the clearances, APHIS may
appoint prospective employees but not assign them to work requiring unescorted access
to secure areas in commercial airports.




USDA/OIG-Audit No. 33601-3-Ch                                                                 111
Recommendation No. 32

Amend APHIS' hiring policies to include pre-employment NACI or other basic
background checks for all inspection employees assigned to airports or other secure
locations.

Agency Response

APHIS agreed to amend its hiring policies to include a pre-employment check for all
employees (full-time and temporary) requiring unescorted access at commercial airports.
They also agreed to delay reporting dates for prospective employees until the results of
their criminal history records check are received. Prospective employees may be
appointed prior to being cleared but not assigned to work requiring unescorted access.

Amended Agency Response

The amended hiring policy started September 2002. It is the current APHIS policy that
individuals, qualified for employment by OPM and listed on employment certificates,
receive an advance pre-employment NACI clearance prior to appointment. The pre-
employment NACI is a cursory review of law enforcement databases and used as a factor
in determining employment suitability. This preliminary NACI is intended to supplement
the full NACI background investigation which is completed after appointment.
Unescorted access to secure areas of the airport will commence after satisfactory
completion of the full NACI.




USDA/OIG-Audit No. 33601-3-Ch                                                              112
Recommendation No. 33

Immediately develop and implement a tracking system to follow-up on all cases where
employees do not properly complete and return security forms needed to initiate NACI
checks within a reasonable timeframe.

Agency Response

APHIS agreed to use the existing Security Entry Tracking System (SETS) automated
database to track the status of all pending security clearance requests in the Agency to
ensure timely completion. APHJS stated that it is working with OCPM on training
Agency employees on the accurate completion of the forms needed for clearance to
reduce the error and return rates of these forms.




USDA/OIG-Audit No. 33601-3-Ch                                                              113
Recommendation No. 34

Notify the Department and congressional offices that the FY 2000 and 2001 Annual
Performance Reports are seriously deficient and should not be relied upon. Prepare a plan
to accurately report in the FY 2003 Annual Performance Report.

Agency Response

As acknowledged in responses to several previous recommendations, the AQIM and
WADS data used to compute compliance rates are not perfect. Considerable efforts have
been and are being made to improve data collection, data quality and reporting methods.
The critical importance of the goals and measures is evident by the scrutiny and review
that APHIS' annual performance plans and reports undergo each year by the Agency, by
USDA, and by the Office of Management and Budget (0MB) prior to submission to
Congress. In addition, APHIS' performance report was recently reported by
govexec.com as effective.

Compliance is one measure of AQI performance. There are many other indirect
measures that reflect AQI performance. Those measures include:

       Specific pest threats to U.S. agriculture eradicated or controlled in foreign countries
       Number of exotic pest and disease outbreaks in the United States
       Number of and economic impact of animal or plant health trade barrier issues
       resolved

The establishment of performance measures and goals is an evolving process. PPQ is in
the process of reviewing and revising its performance measures and indicators. PPQ is
also participating in the development of a new APHIS strategic plan.




USDA/OIG-Audit No. 33601-3-Ch                                                                    114
Recommendation No. 35

Include in subsequent annual performance reports the performance gaps between actual
approach and the AQIM estimated approach rates as performance indicators.

Agency Response

The Agency disagrees with OIG's recommendation. APHIS believes that compliance
and customer satisfaction are external performance measures that should be reported to
Congress annually. Performance gaps between estimated and actual approach rates of
agricultural materials are Agency internal indicators that managers, on all levels, should
use to measure and make improvements to the efficiency and effectiveness of AQI
operations.

The performance gap that measures the amount of prohibited agricultural material can be
very misleading. For example, if none of the material is infested with a pest or disease
there is no risk. Therefore, the size of the gap is insignificant because the performance
gap never results in outbreaks.

The performance gap is best used in combination with a measure such as outbreaks (as
stated in Agency Response to Recommendation No.34). For example, there have been
fruit fly outbreaks in California. Those outbreaks may be an indication of a weakness in
the exclusion efforts. Using the presence of an outbreak as an indicator and the details of
the performance gap, PPQ can then evaluate specific pathways and act to improve its
operation.




USDA/OIG-Audit No. 33601-3-Ch                                                                 115
Recommendation No. 36

Develop written procedures for GPRA measures, including internal controls over the
collection, calculation, and reporting of performance data, to support the results included
in APHIS' annual reports.

Agency Response

GPRA measures for AQI are compiled from a variety of sources (WADS, AQIM, pest
interceptions). Many internal controls are already in place to provide guidance for the
collection and reporting of performance data. For example: various national and
regional data quality checks for WADS data are performed routinely; a national AQIM
handbook is available at all port offices; regional program managers and Port Directors
have responsibilities for AQIM collection and reporting; etc. In addition to these, as
indicated in many of the previous Agency responses, new or revised procedures and
policies will soon be implemented to improve internal control over data sources and data
quality .




USDA/OIG-Audit No. 33601-3-Ch                                                                 116
Recommendation No. 37

Describe in annual plans specific verification and validation methods that will ensure the
accuracy of performance results reported and that these specific methods are fully
implemented. In addition, ensure that any scope limitations are clearly presented in the
GPRA report.

Agency Response

APHIS agrees that there were minor omissions in the annual reports. The report clearly
indicates compliance rates for air and maritime cargo. Southern border truck cargo is
also included in the calculations; however, truck cargo was not listed in the table that was
in the report. Rail cargo is also not included because the pathway [
           ]. It was never APHIS' intent to report compliance on the northern border
(vehicles or trucks) because of the constant difficulties of monitoring [
           ] the northern border. This was explained to OIG in detail.

APHIS acknowledges these minor omissions and will clarify these points in future annual plans
and reports.




USDA/OIG-Audit No. 33601-3-Ch                                                                  117
Informational copies of this report have been distributed to:

General Accounting Office                                       (1)
Office of the Chief Financial Officer
   Director, Planning and Accountability Division               (1)
